<html>
<title> - SYRIA</title>
<body><pre>[Senate Hearing 113-201]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-201
 
                                 SYRIA 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 31, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

86-865 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     3
Countryman, Hon. Thomas M., Assistant Secretary of State for 
  International Security and Nonproliferation, U.S. Department of 
  State, Washington, DC..........................................     8
    Prepared statement...........................................     9
Ford, Hon. Robert S., U.S. Ambassador to Syria, U.S. Department 
  of State, Washington, DC.......................................     4
    Prepared statement...........................................     5
Gelb, Leslie H., Ph.D., president emeritus and Board senior 
  fellow, Council on Foreign Relations, Washington, DC...........    42
    Prepared statement...........................................    43
Hof, Hon. Frederic C., senior fellow, Rafik Hariri Center for the 
  Middle East, Atlantic Council, Washington, DC..................    37
    Prepared statement...........................................    38
Lindborg, Hon. Nancy E., Assistant Administrator for the Bureau 
  of Democracy, Conflict and Humanitarian Assistance, United 
  States Agency for International Development, Washington, DC....    10
    Prepared statement...........................................    12
Menendez, Hon. Robert, U.S. Senator from New Jersey..............     1

       Additional Questions and Answers Submitted for the Record

Responses of Robert Ford and Thomas Countryman to Questions 
  Submitted by Senator Jeff Flake................................    48

                                 (iii)

  


                                 SYRIA

                              ----------                              


                       THURSDAY, OCTOBER 31, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:16 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Shaheen, Coons, Durbin, 
Udall, Murphy, Kaine, Markey, Corker, Risch, Rubio, Johnson, 
Flake, and McCain.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This Senate Foreign Relations Committee will 
come to order. We have two panels today. Our first panel is: 
Robert Ford, Ambassador to Syria; Nancy Lindborg, who is the 
Assistant Administrator for the Bureau of Democracy, Conflict 
and Humanitarian Assistance at USAID; and Thomas Countryman, 
Assistant Secretary of State for International Security and 
Nonproliferation.
    On our second panel we will have Ambassador Frederic Hof, a 
senior fellow at the Rafik Hariri Center for the Middle East on 
the Atlantic Council, and Dr. Leslie Gelb, the president 
emeritus of the Council on Foreign Relations. We welcome you 
all.
    I look forward in this hearing to hearing your perspective 
on the realities we face in Syria, the state of play, the 
progress we have made, and where we go from here strategically, 
especially given the catastrophic humanitarian crisis that is 
spreading across the region. Seven million Syrians, a third of 
the country's population, have fled their homes. More than 2 
million refugees, half of them children, have fled to 
surrounding countries.
    The regional impact is enormous. In tiny Lebanon, for 
example, the presence of 750,000 refugees is equivalent to some 
58 million refugees entering the United States.
    Clearly, with 4,000 refugees fleeing Syria every day, for 
the sake of the region and the world we must find a resolution 
to this devastating humanitarian crisis. Now we read reports of 
a breakdown in Syria's health services, with the World Health 
Organization warning that confirmed cases of polio could just 
be the tip of the iceberg and a significant setback in the 
campaign to eradicate polio worldwide.
    While responsible players in the international community 
seek to address the humanitarian crisis, there is no end in 
sight to the suffering. Despite the fact that most of us today 
would agree that a negotiated settlement is certainly 
preferable to any military action or the collapse of the Syrian 
state, the utter lack of consensus on the transitional 
governance plan for Syria portends continued bloodshed and 
suffering.
    While the international community holds meetings about 
meetings, the Assad regime continues its brutal assault on the 
Syrian people, backed by Iran, Russia, and Hezbollah. At this 
point, the consequences of failure to achieve a political 
settlement are frightening. A failed Syrian state bordering 
Iraq, Lebanon, Turkey, Jordan, and our ally Israel becomes a 
haven and training ground for violent extremist groups in an 
already unstable region.
    So I am concerned about what comes next strategically at 
the political, diplomatic, and humanitarian levels. I would 
like to hear from each of you what our strategy should be going 
forward and your assessments of the direction of the conflict. 
Will the Geneva conference take place in November? How can it 
take place when the Syrian opposition remains fragmented and 
resistant? How can it take place without empowering Assad, and 
what are the consequences if there are no steps taken toward 
negotiations?
    What needs to happen for the Syrian opposition to unite in 
political purpose in a post-Assad governance plan? Does the 
United States-recognized Syrian opposition speak for Syrians 
inside of Syria? And how can we galvanize international support 
for a negotiated settlement, especially when Assad is backed by 
those in Moscow and Teheran who see a different set of goals? 
What is the impact of the concerns raised by our gulf partners 
about United States commitment to addressing the Syrian crisis? 
And worst of all, what are the consequences of a failed state 
in Syria?
    I do want to take note of some, I think very important 
progress that was, I think, largely fueled by the vote of this 
committee for the use of force, that allowed the President to 
make it clear what would be his intentions if there could not 
be a negotiation. That is the progress we are making on 
destroying and dismantling Syria's chemical weapons 
infrastructure and supply.
    Today the Organization for the Prohibition of Chemical 
Weapons confirmed that it has destroyed the equipment Syria 
used to make chemical weapons, and so far inspectors have 
visited 21 of the 23 chemical sites initially identified by 
Syrian authorities within the timeframe that was specified, 
which would be tomorrow. The two remaining sites are in 
contested areas where the challenge of getting there is more 
difficult, but I hope ultimately can be succeeded at as well.
    So let me begin by saying I want to make clear my views at 
the outset. The United States cannot, and should not, be the 
key that resolves every dispute in this region, but we have a 
very real strategic stake in the stability of the region and 
ensuring that Syria does not become a failed state. I believe 
we need to further increase our humanitarian assistance and 
insist on humanitarian access, as well as increase our support 
to communities hosting Syrian refugees in Lebanon and Jordan, 
and to getting others in the international community to live up 
to their responsibilities in this regard, calling on donor 
nations to join us in its time of greatest need, because Syria 
is now, from my perspective, a global problem.
    Finally, we need an answer as to what we can do to push all 
sides in this conflict toward a settlement and a future for 
Syria that does not include Assad. The stakes are high for the 
people of Syria, for the region and the world, and we need to 
have a comprehensive strategy and an answer to the basic 
question, what comes next.
    Senator Corker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman.
    I want to thank the witnesses of both panels for being here 
today and I look forward to your testimony. I want to also 
thank the committee. I think--and your leadership, Mr. 
Chairman. We have had two, I think, really big steps that have 
taken place in this committee.
    One was laying out a strategy for Syria that passed on a 
15-3 vote in this committee. Regardless of how people voted, I 
think it was one of the finer moments of this committee.
    Secondly, you remember, I think everybody remembers, 
Secretary Kerry came in on September 3 asking for the 
authorization for the use of military force, which was passed 
out of this committee at his request and at the President's 
request. At that time the Secretary said there was a strategy 
relative to Syria. As a matter of fact, it was a strategy 
similar to what was laid out in this committee.
    Obviously, things have changed pretty dramatically on the 
ground since that time with the issue of the chemical weapons. 
Basically as far as I can see there is no real strategy 
relative to the opposition. I know that we are still 
verbalizing that there is a strategy. I look forward especially 
to Ambassador Ford's testimony regarding the opposition.
    But let us face it, guys: What really happened when the 
Russian offer came forth was it was less about seizing an 
opportunity and it was more about our country not having the 
stomach to follow through on a strategy over the longer term 
relative to Syria. Now, look, I very much hope that we are 
successful and think we will be relative to chemical weapons. 
But in the process we have diminished our standing in the 
Middle East. I think everybody watching understands that in 
essence we've thrown out any real strategy there and are just 
trying to figure out a way out of this. We have empowered 
Assad. We have weakened ourselves relative to other issues in 
the Middle East.
    So I am very disappointed. I do hope that somehow things 
that are good come out of this for our Nation. I want to 
support any and every diplomatic effort that is taking place. 
But I think we ought to realize there is no strategy right now 
for the opposition; none. There is no strategy.
    For that reason, there is unlikely to be a very successful 
Geneva 2 conference, because who is it that we are going to be 
dealing with? Who is it that we are going to be bringing to the 
table? So I think we have, again, weakened ourselves. I hope 
there is a good outcome and I hope there are other 
opportunities for this committee to be involved in some good 
outcomes. But I do look forward to our witnesses today; their 
testimony. I look forward to them helping us help the 
administration and help our Nation develop a better longer term 
strategy in Syria.
    Mr. Chairman, I thank you for calling this timely hearing.
    The Chairman. Ambassador Ford, we will start with you.

  STATEMENT OF HON. ROBERT S. FORD, U.S. AMBASSADOR TO SYRIA, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Ford. Thank you, Mr. Chairman, Ranking Member 
Corker, and members of the committee. Thank you for the 
opportunity to come and give you an update on the United States 
Government's Syria policy. I have submitted written testimony 
for the record.
    I have been alternating, one week in Washington and one 
week in the Middle East, for the last month as we have worked 
to provide assistance to the moderate opposition and as we push 
for a political settlement. Let me focus on those two elements, 
strategy with the opposition and focus on the political 
settlement, and I will let my colleagues, Assistant Secretary 
Countryman and Assistant Administrator Lindborg, talk about 
chemical weapons and humanitarian assistance issues.
    The conflict in Syria now is a grinding war of attrition. 
The regime is suffering serious manpower shortages. For that 
reason, it has brought in foreign fighters from Hezbollah, from 
the Iran Revolutionary Guard Corps, and even Iraqi Shia 
militiamen. Meanwhile, the moderate opposition that we support 
is fighting on two fronts, both against the regime and against 
militants, extremists, directly linked to Al Qaeda in Iraq--the 
same Al Qaeda in Iraq that we used to fight.
    The battle front in Syria is more complicated now, but 
neither the regime nor the various opposition factions can 
throw a knockout punch in the foreseeable future. Our strategy 
is based on that assessment. Secretary Kerry therefore is 
working extensively with Russia, with other concerned members 
of the international community, including countries like us 
that strongly support the Syrian opposition, and he is working 
with the United Nations to promote a political solution.
    Last week on October 22 in London, 11 countries that 
strongly support the Syrian opposition came together and we all 
reaffirmed our support for a negotiated settlement based on the 
full implementation--I want to underline that, full 
implementation--of the June 2012 Geneva communique. This full 
implementation of the Geneva communique is also what we have 
agreed upon during the summer with the United Nations and the 
Russian Government.
    We, the Russians, the London 11 countries, and the United 
Nations all agree that a Geneva peace conference should result 
in the creation of a transition governing body established by 
mutual agreement between the Syrian regime and the opposition. 
This is a political solution which most Syrians and those 
countries supporting the opposition and supporting the regime 
would back.
    We have confirmed with the Russians during our summer 
discussions and among the 11 countries that just met in London 
that mutual consent--I mentioned mutual consent to set up this 
government--mutual consent would mean the opposition has a veto 
on the formation and the details of that transition government.
    Speaking frankly, no one who knows the groups that are 
resisting and fighting the regime now thinks they will ever 
accept Assad. That said, the regime also has a veto. So if we 
do get to a Geneva conference we can expect very tough 
negotiations.
    The Syrian opposition has a role to play here. It needs to 
tell other Syrians not only what it rejects, but also what it 
proposes in terms of a reasonable alternative to the existing 
Assad regime. It needs to put that on the table. Why? Because 
many of the people who support the regime now do so fearfully. 
I have heard this repeatedly from them, from people I have met. 
They want to know, is there a way out of the conflict? The 
Russians, who back the regime but say they are not tied to 
Assad, they too want to see the opposition put forward an 
alternative.
    So the opposition has a lot of work to do in this regard. 
And that reasonable alternative is especially needed now 
because of the growing competition between extremists and 
moderates inside Syria. Mr. Chairman, members of the committee, 
I really want to emphasize that we have to weigh in on behalf 
of those who promote freedom and tolerance within the Syrian 
opposition, people who resist the regime, but who also resist 
al-Qaeda-linked extremists. I said that last spring when I 
appeared before you and it is even more true today.
    Our nonlethal support of the moderate-armed opposition is 
therefore vital, and it is a point that General Idriss of the 
Supreme Military Council has made to me repeatedly. More 
broadly, since the start of the conflict we have provided over 
$250 million in nonlethal assistance to the coalition and a 
range of local councils, grassroots groups, to help preserve 
institutions of governance in places where the Syrian regime 
has withdrawn.
    As I have told this committee before, Syria presents 
incredibly difficult challenges. We will continue working to 
support the moderates in the opposition and to push forward on 
a political solution. We look forward to working with the 
Congress as we move ahead.
    Thank you again for the opportunity to come before you 
today and I will be happy to take questions.
    Thank you.
    [The prepared statement of Ambassador Ford follows:]

            Prepared Statement of Ambassador Robert S. Ford

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for inviting me to present an overview of our 
policy to promote political transition in Syria.
    This hearing is timely, due to recent developments. As I have also 
just returned from travel for meetings in Europe and the region, I can 
share with you the results of the Department's efforts to press the 
parties toward negotiations as well as working with our partners to 
bolster international support.
    As we finalize and put into action a plan to end Syria's chemical 
weapons program and stockpile, which my colleague, Assistant Secretary 
Countryman, will address, we have doubled-down on our diplomatic 
efforts to bring the parties together to negotiate an end to the 
conflict. A negotiated political transition that rids Syria of Assad 
and his ruling clique, while preserving civil order, is the best means 
to stem the bloodshed as well as counter the growth of extremist groups 
taking advantage of the situation in Syria.
                          preparing for geneva
    During my recent meetings with a host of opposition figures, all 
agreed that negotiations presented the best means to end the conflict. 
However, they also agreed that achieving a political transition that 
results in Assad's departure will not be easy. They fundamentally do 
not trust the Assad regime and are concerned that external parties will 
cut a deal at the opposition's expense.
    These comments come from Syrian oppositionists who were thrown in 
prison, tortured by intelligence officials, and faced regular 
harassment and intimidation by both Bashar and his father, Hafez al-
Asad. These are people who do not give up but are justifiably hesitant 
to sit down at a negotiating table across from representatives of a 
regime that has killed over tens of thousands of its own people, using 
chemical weapons, ballistic missiles, sniper bullets, aircraft, and 
heavy artillery.
    Syria's opposition knows the Assad regime well; we cannot dismiss 
their views. During the October 22 meeting of the London 11 and in our 
communique from the meeting we have sought to bolster the opposition's 
confidence in approaching negotiations and assure them that, as the 
London 11 communique stipulates, ``when a [transitional governing body] 
is established, Assad and his close associates with blood on their 
hands will have no role in Syria.''
    In the London 11 meeting, we also agreed that negotiations must not 
be open-ended and must result in implementation of the Geneva 
Communique principle of a transitional governing body exercising full 
executive powers, including over security and military forces in the 
country.
    The London 11 agreed that the Syrian opposition will be represented 
by a single delegation headed by the Syrian Opposition Coalition (SOC) 
that will include other opposition representatives outside the 
coalition. This delegation must be representative if it is to assure 
Syria's many minority communities that Syria's future will be 
inclusive.
    Since December 2012, the United States, along with our 
international partners, has recognized the SOC as the legitimate 
representative of the Syrian people. Comprised of diverse 
representatives inside and outside Syria, the coalition is committed to 
a democratic, inclusive Syria free from the influence of violent 
extremists.
    The SOC has begun planning and preparation for negotiations. 
Although the SOC's leadership, including President Ahmed Issa al-Jarba 
support negotiating with the Syrian Government, they are deferring a 
decision to the General Assembly. While the outcome of a General 
Assembly vote, expected early in November, remains uncertain, the 
process of discussion within the General Assembly is useful in building 
a consensus and attaining a unified position.
    SOC deliberations are not something for the U.S. to manage. It is 
an effort led by Syrians for Syrians that will define their desired 
outcomes. The SOC delegation will need genuine internal support to 
withstand Syrian regime negotiating tactics during the tough days 
ahead.
    We have committed to building a process for the Syrian people to 
resolve the crisis themselves. The international community cannot do it 
for them. However, the international community and the United States in 
particular can support the Syrian opposition as they take the risky 
step forward in meeting with the other side.
                            u.s. assistance
    The conflict in Syria has fostered an environment that fuels the 
growth of extremism, and al-Qaeda-linked groups are working to exploit 
the situation for their own benefit. There is a real competition now 
between extremists and moderates in Syria and we need to weigh in on 
behalf of those who promote freedom and tolerance.
    Since the start of the conflict, we have provided over $255 million 
in nonlethal assistance to the coalition and a range of local councils 
and grassroots groups inside Syria to build a network of ethnically and 
religiously diverse civilian activists from the top down as well as the 
bottom up. These funds are strengthening local councils, civil society 
groups, unarmed political activists, and free media to improve 
governance, accountability, and service delivery at the subnational and 
national level.
    Our Liberated Areas Initiative is providing $10 million worth of 
generators, cranes, trucks, ambulances, and water bladders to areas 
under opposition control. During Ramadan, the United States provided 
51,000 food baskets to a number of target areas in liberated areas 
mainly in northern Syria. Specifically, we have also provided 10 
ambulances, 37 generators, 220 water storage units, and 5 firetrucks 
for local councils.
    We boosted nine independent radio station signals, extending the 
reach of broadcast on FM stations, and funded three independent 
television stations. Those media platforms were used to address 
sectarian violence and issue public service messages on best practices 
in the event of chemical weapons exposure.
    The United States has also trained over 15 local councils and civil 
society organizations to improve their responsiveness to community 
needs and their capacity to improve governance in the communities they 
support. About 61 local councils, 16 professional organizations, 42 
media centers, and 106 civil society organizations have been 
represented at training funded by the U.S. Government for a total of 
nearly 3,000 activists trained.
    Fierce fighting in Syria continues. Now with the regime dismantling 
its chemical weapons, it has returned to barbaric siege tactics on 
civilian areas that refuse to surrender.
    In neighborhoods just minutes from Assad's gilded palace, children 
are dying while his forces are reportedly limiting access so severely 
that we are hearing the first reports of acute malnutrition as food aid 
and other assistance is blocked.
    In the neighborhood of Muadhamiyyah, where the regime was so 
desperate to regain the upper hand that it used chemical weapons on 
August 21, it has allowed only a few thousand civilians to leave to 
provide cover for its attempts to choke off any supplies to the area 
for the remaining civilians.
    The Syrian Government has ignored the demands by the U.N. Security 
Council, international humanitarian organizations, prominent religious 
leaders, and even its supporter, Russia, to allow the flow of 
humanitarian aid to these affected communities.
    The best way for the regime to demonstrate it cares about the 
people of Syria and is ready to commit to work toward a resolution of 
this conflict is for it to allow assistance to flow to its own people.
                    support to the armed opposition
    There is no military solution to the conflict in Syria. Neither the 
regime nor the opposition has the wherewithal to militarily defeat the 
other. However, our support to the armed opposition is essential to our 
ability to maintain influence and to strengthen the position of 
moderates.
    Our support assists Idriss and the SMC in their fight with 
extremist groups, who have targeted the moderate opposition. The 
Islamic State in Iraq and the Levant, an outgrowth of Al Qaeda in Iraq, 
has increasingly chosen to fight the moderate opposition. By empowering 
the moderates, we help them contest against extremists and terrorists.
    Our nonlethal support of the moderate-armed opposition is important 
in keeping pressure on the regime. We greatly appreciate Congress' 
support, as we seek to provide the Supreme Military Council (SMC), led 
by General Salim Idriss, with 80 million dollars' worth of critical 
force enablers like vehicles, food, medical kits, and basic 
communications equipment.
    To mitigate the risk that our assistance might end up in the hands 
of extremists, we will continue to rely on the effective, formal 
processes that have been established across various agencies in the 
government to vet the recipients of U.S. assistance.
                               conclusion
    The regime bears the responsibility for pursuing conflict rather 
than reform. The current situation was not inevitable. It sprang from a 
ruling clique that was willing to sacrifice its people to hold onto 
power. Assad has lost all legitimacy and must go. The regime and its 
backers have a choice--hold to the current approach and become a 
failing state beholden to foreign backers or take the higher road and 
shape the future of the country through negotiations.
    Syrians are approaching the first opportunity to end over 2 years 
of civil war by starting negotiations. They do so in an atmosphere of 
distrust and apprehension. However, negotiations present the best 
chance for Syrians to define for themselves a vision of what freedom 
means in a new Syria. A future Syria must be inclusive of all its 
citizens in order to heal the wounds this civil war has inflicted.
    A new, peaceful future for Syria is possible. It can be done. 
Negotiations will be a first step. We must, however, be realistic. 
Negotiations are unlikely to end quickly or be definitive on all 
points, including a constitution and new elections.
    We support an inclusive, democratic transition. We continue to 
believe that is the best solution to the Syrian crisis. We also know 
that the opposition and the regime will need support to get to an 
agreement.
    We look forward to working with Congress throughout this process. 
Thank you again for the invitation to testify before your committee 
today. I am happy to take your questions.

    The Chairman. Secretary Countryman.
    And all of your statements will be fully included in the 
record without objection.

STATEMENT OF HON. THOMAS M. COUNTRYMAN, ASSISTANT SECRETARY OF 
  STATE FOR INTERNATIONAL SECURITY AND NONPROLIFERATION, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Countryman. I want to thank you, Mr. Chairman, and 
thank the ranking member, Senator Corker, for this opportunity 
for a review of the progress made in the elimination of Syria's 
chemical weapons program. Today was the date that the 
Organization for the Prohibition of Chemical Weapons was able 
to announce that it had met the first target date in the 
program, completing the destruction of production, mixing, and 
filling equipment. I agree with both of you that the action of 
this committee last month contributed notably to the results we 
have achieved so far.
    Since you have my written testimony, I would like to make 
just three quick points. First, our timetable. Our target dates 
are ambitious, but they are achievable. We have the support of 
the international community, including partners who are 
prepared to contribute financially and in terms of technology 
to achieving this goal. We have a very determined cadre of 
Federal employees in both the Defense Department, the State 
Department, and other agencies who are working hard to make 
sure that we have thought through a plan that is complicated 
but achievable in terms of logistics and security.
    I am increasingly confident that we will be able to 
complete this task, the elimination of Syria's CW program, 
within the target date of June 30 of next year.
    A couple of key factors that will contribute to the 
achievement of that target date and that, so far, are going 
well.
    First, we discussed back in Geneva with the Russians that 
the removal of dangerous precursor chemicals from Syria, the 
bulk of which are not weaponized, not inside shells or 
warheads, would be essential to completing this task on time. 
The destruction plan submitted by the Syrian Government to the 
OPCW embraces exactly that concept and we are confident that we 
will have a host country that can work with us to effect the 
destruction outside of Syria of these precursor chemicals.
    Secondly, our cooperation with the Russian Federation has 
so far been strong. We will continue to expect the Russian 
Government to press the Syrian Government for full compliance 
with its obligations. This will be essential as we move ahead.
    Third, we continue this process with our eyes wide open. We 
are about to enter what could be the most complicated phase in 
terms of both logistics and security; that is the removal of 
chemical precursors in large quantities from several sites 
within Syria to the coast for removal on a ship to another 
country. That has both big logistical problems to think through 
and certain security risks.
    At the same time, while the record so far is acceptable, we 
do not assume or take for granted that the Syrian Government 
will continue full compliance with its obligations. We have the 
tools we need, granted by the OPCW executive committee and by 
the United Nations Security Council, to press ahead on this 
goal. We intend to do so. This is why our statement, here and 
publicly, reflects the cautious optimism that we have at this 
point.
    Thank you and I look forward to your questions.
    [The prepared statement of Mr. Countryman follows:]

            Prepared Statement of Hon. Thomas M. Countryman

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for inviting me to talk to you today about the 
efforts by the United Nations (U.N.) and the Organisation for the 
Prohibition of Chemical Weapons (OPCW) to complete and verify the 
elimination of the Syrian chemical weapons program. We have made 
significant progress in the month and a half that has passed since the 
negotiation of the U.S.-Russia Framework in Geneva (Framework). 
Considerable work remains to ensure the Syrian regime can never again 
use these weapons against its own people.
    Two months ago, the Assad regime did not even publicly acknowledge 
that it possessed chemical weapons, despite having just perpetrated the 
worst chemical weapons attack in this century. As of today, OPCW 
inspectors on the ground in Syria, with U.N. support, have conducted 
inspections of 21 chemical weapons-related sites and verified the 
destruction of the production, mixing, and filling equipment at those 
sites. The OPCW has indicated that the Syrian Government is on target 
to complete the destruction of its chemical weapons production, and 
mixing/filling capabilities by November 1. The international community 
has come together to establish a firm legal framework, through U.N. 
Security Council Resolution (UNSCR) 2118 and a related decision by the 
OPCW Executive Council, to ensure that this immense undertaking is 
fulfilled in a transparent, expeditious, and verifiable manner--and 
within the ambitious but realistic timeline envisioned in the 
Framework. On September 14, the Syrian Government formally acceded to 
the Chemical Weapons Convention (CWC) and, in accordance with the CWC, 
UNSCR 2118, and an OPCW Executive Council decision, submitted a 
declaration of its CW materials and facilities to the OCPW on October 
24, 2013.
    The implementation of the Framework could not have been achieved 
absent the serious consideration of the use of force by the United 
States. It remains critically important, as this process continues, 
that members of the international community continue to monitor closely 
the Syrian regime's compliance with its CW-related obligations. Syria's 
obligations are quite clear, and we will continue to encourage Russia 
to advise the Assad regime about the wisdom of continued cooperation. 
The Security Council has already decided that, in the event of 
noncompliance with UNSCR 2118, it would impose chapter VII measures.
    Last week, in conjunction with its initial declaration required by 
the CWC, the Syrian Government also submitted its required destruction 
plan to the OPCW. That plan was informed by technical-level 
conversations among U.S. and Russian experts and the OPCW Technical 
Secretariat in The Hague. While the CWC and OPCW require preserving 
confidentiality, I can say in this setting that the United States and 
Russia believe the destruction plan to be feasible and to conform to 
the terms outlined in the Framework. The plan also reflects our shared 
view that the removal and destruction of CW agent and precursor 
chemicals outside Syria, under OPCW verification, will be the most 
effective way to eliminate the vast majority of Syria's chemical 
weapons in the shortest possible time. With this in mind, UNSCR 2118 
authorizes U.N. member states to acquire, control, transport, transfer, 
and destroy Syrian chemical weapons identified by the OPCW.
    The task before us remains considerable and the timelines 
ambitious; ongoing Syrian cooperation with the U.N.-OPCW Joint Mission 
remains the key factor in successfully eliminating these weapons by 
mid-2014, as envisioned by the U.S.-Russia Framework. We expect the 
Russian Federation to continue to press Damascus to comply with these 
obligations and to permit the U.N.-OPCW Joint Mission to complete its 
work. With the continuing cooperation of the Syrian Government, the 
support of the international community, and the dedicated members of 
the U.N.-OPCW Joint Mission, we believe that this timeline is 
achievable. We have, of course, also been in close and continuous 
contact with Syrian opposition leaders, updating them throughout this 
process, and reiterating our expectation that they support and 
facilitate the activities of the U.N.-OPCW Joint Mission.
    Let me say a word about the role of the United States and the 
international community in providing support to the U.N.-OPCW Joint 
Mission in Syria. We continue to encourage all countries to make 
whatever contribution they can to this important undertaking--whether 
that contribution is financial, technical, or in-kind--to enable the 
OPCW and U.N. to complete their missions. The United States has led by 
example in providing such support. U.S. assistance to the U.N. and OPCW 
already totals approximately $6 million from the State Department's 
Nonproliferation and Disarmament Fund, including direct financial 
assistance to both the U.N. and OPCW Trust Funds, as well as in-kind 
support for the inspection team. For example, as Secretary Kerry 
reported last week in London, the United States delivered 10 armored 
vehicles to support the efforts of the OPCW-U.N. Joint Mission in 
Syria.
    We continue to approach this process with our eyes wide open. We 
can expect that the path ahead will not be smooth, given the 
unprecedented scope and timelines for the mission. But the positive 
developments in the 6 weeks since we left Geneva confirm that its 
timely completion is achievable. We are resolute in addressing these 
challenges given what is at stake for the Syrian people, the region, 
and the world.
    Thank you again for the opportunity to discuss this important 
security issue with you. I look forward to your questions and to 
continuing to consult with you closely in the days ahead.

    The Chairman. Thank you.
    Administrator Lindborg.

 STATEMENT OF HON. NANCY E. LINDBORG, ASSISTANT ADMINISTRATOR 
    FOR THE BUREAU OF DEMOCRACY, CONFLICT AND HUMANITARIAN 
ASSISTANCE, UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Ms. Lindborg. Chairman Menendez, Ranking Member Corker, and 
members of the committee, thank you for inviting me to testify 
today and most especially thank you for your ongoing concern 
and for your support for humanitarian programs around the 
world. They are making a difference in the lives of many.
    Since I last testified on this issue in front of this 
committee 7 months ago, there have been 30,000 additional 
deaths among the Syrians. In the last year the number of deaths 
has tripled to more than 100,000 and the number in need inside 
Syria has climbed to more than 6.8 million. This is equivalent 
to the total population of Vermont, New Hampshire, Maine, and 
Connecticut combined.
    The pace of escalation is staggering. According to a recent 
U.N. report, in the 2 years of conflict Syria has lost 35 years 
of human development progress. With the 2 million refugees, 
this is a national crisis that has become a regional crisis, 
putting serious strains on the neighboring countries. Behind 
these jarring statistics is the real toll on the Syrian 
people--the kids who have not gone to school for 2 years; the 
women who have endured rape and abuse; and the 5 million 
internally displaced Syrians who do not have a place to live or 
enough to eat.
    As the crisis has escalated, we have accelerated our 
humanitarian response. Our assistance is now reaching about 4.2 
million people inside Syria and we are helping to support 2 
million refugees. But the same stubborn challenges that I 
talked about 7 months ago--access, security, and resources--
continue to prevent us and others from reaching everybody who 
needs help to get it, and the needs continue to escalate.
    In early October, fueled by the political momentum of the 
Security Council's resolution to eliminate the chemical 
weapons, the U.N. Security Council unanimously passed a 
Presidential statement on humanitarian access. This statement 
urges all parties to the conflict to facilitate immediate 
access to all those affected, including going across borders 
and across conflict lines. This agreement represents the first 
and the most significant show of global political will to help 
those who need it most. The challenge now is to translate that 
commitment into real action on the ground.
    Recent reports of starvation campaigns by the regime, of 
serious food shortages and disease outbreaks in areas that are 
literally blockaded, under siege by the regime, underscore the 
urgency.
    The U.S. Government is working to mobilize the 
international community to act with the same intensity as it 
did around chemical weapons to ensure lifesaving assistance 
reaches those who need it desperately. In the meantime, we are 
continuing to provide humanitarian assistance through all 
possible channels, through the United Nations, through our NGO 
partners, through local Syrian organizations. Since this time 
last year, USAID has doubled 
the number of our partners working inside Syria and we have 
shored up systems and supply lines so that we can reach all 14 
governates.
    USAID is focused on four key areas, as detailed in my 
written testimony. In medical care, we have set up hundreds of 
medical facilities and treated hundreds of thousands of 
patients. We are working with an unbelievably courageous group 
of Syrian doctors and health workers who put their lives on the 
risk, lives at risk, on the front lines every day.
    We are particularly concerned about the 10 cases of polio 
confirmed by WHO and are calling on all parties to allow access 
to the vaccination campaign that WHO now has under way.
    Secondly, we remain the second-largest donor of emergency 
food. Our partners are now reaching more than 3 million people 
in Syria and a million refugees each month with food.
    Third, a very tough winter is ahead. There are millions 
more displaced this year. So we are mobilizing a major 
winterization response.
    As always, we are focused on protecting the most 
vulnerable. Women and children always fare the worst in the 
war. The Syria crisis is no exception. So we have elevated our 
focus on the scourge of gender-based violence and worked to 
provide assistance both inside and in the camps.
    The single greatest factor limiting assistance remains the 
ongoing and intensifying conflict. The United Nations estimates 
that 2.5 million people in need have not received help in 
almost a year, and the regime is actively blockading whole 
communities. This is unconscionable and the recently passed 
U.N. agreement lays down very clear markers for the Syrian 
regime regarding the world's expectations that it will enable 
long-denied humanitarian access. We are encouraged that Russia 
and China supported this agreement and we must now see that 
support translated into meaningful pressure.
    A quick word on the neighboring countries. We are working 
to combine our development and humanitarian resources so that 
we are providing help not just for the refugees, but for the 
host communities that are buckling under the strain of this 
influx of refugees. We are working closely with the 
international humanitarian donor community to make those 
resources count for the most.
    In conclusion, humanitarian assistance will absolutely not 
end the bloodshed in Syria, but it is saving countless lives 
and it is alleviating very real pressures in the region. Your 
support has been absolutely vital.
    So once again, thank you very much, and I look forward to 
questions.
    [The prepared statement of Ms. Lindborg follows:]

              Prepared Statement of Hon. Nancy E. Lindborg

    Chairman Menendez, Ranking Member Corker, and members of the 
committee; thank you for inviting me to testify on the ongoing U.S. 
response to Syria's humanitarian crisis. Thank you also for your 
continued support for our humanitarian programs around the world, which 
make a positive difference every day in the lives of millions.
                              introduction
    I last testified on the Syria crisis for the Senate Foreign 
Relations Subcommittee on Near Eastern and South and Central Asian 
Affairs 7 months ago and since then we have seen another 30,000 deaths, 
reflecting the staggering escalation of violence. In just the last 
year, the number of reported deaths has tripled from 26,000 to more 
than 100,000. The number in need inside Syria jumped from 2.5 million 
people to more than 6.8 million--roughly the equivalent of the combined 
populations of Vermont, New Hampshire, Maine, and Connecticut. And now 
with over 2 million refugees, a national crisis has fully evolved into 
a regional crisis, putting severe strains on vulnerable communities of 
neighboring countries.
    According to a recent report released by the U.N., Syria has lost 
35 years in human development as a result of 2\1/2\ years of this 
brutal conflict. And behind these jarring statistics is the very real 
toll on the people of Syria who survive--the women who continue to 
endure rape and violence; the ``lost generation'' of Syrian children 
now out of school for 2 years; and the roughly 5 million people 
displaced inside Syria with neither enough to eat nor a safe way out.
    As the crisis has escalated, the United States has accelerated our 
humanitarian response at every step. We have now contributed nearly 
$1.4 billion in humanitarian assistance to help meet the urgent needs 
of 4.2 million people across all 14 governorates inside Syria and the 
more than 2 million refugees.
    But the stubborn challenges of access, insecurity, and resources 
continue to prevent the international community from reaching all those 
who desperately need our help. Seized with the urgency of this crisis, 
in early October, and in the wake of concerted international action on 
securing chemical weapons, the U.N. Security Council unanimously 
adopted a Presidential Statement (PRST) on humanitarian access, urging 
all parties to the conflict to facilitate immediate humanitarian access 
to all those in need, importantly, across borders and conflict lines. 
To date, the PRST represents the first and most significant show of 
global political will to ensure humanitarian assistance reaches those 
who need it most. But now, we need this statement to translate into 
real action--and compliance--on the ground.
    The urgency of real action is underscored by recent reports of 
serious food shortages and disease outbreaks among communities 
literally blockaded and made unreachable by the regime. And, as cold 
weather approaches, we anticipate increased reports of catastrophic 
needs. Coming on the heels of the U.N. Security Council resolution on 
the elimination of Syria's chemical weapons program, the U.S. 
Government is working with intensity to mobilize the international 
community to translate agreement into action on the ground to enable 
life-saving assistance to reach those Syrians desperately in need after 
2 years of a brutal civil war.
    Today, I'd like to update you on the U.S. Government humanitarian 
response and the challenges we still face.
                     the u.s. humanitarian response
    The United States continues to work through all possible channels--
the United Nations, international and nongovernmental organizations 
(NGOs), and local Syrian organizations--to reach those in need with 
life-saving supplies and services. Since this time last year, we have 
scaled up the number of our partners inside Syria from 12 to 26. To 
cope with a conflict with shifting lines, we have shored up systems and 
supply lines to increase our ability to reach all 14 governorates 
throughout the country.
    U.S. humanitarian assistance in Syria is focused on four key areas: 
emergency medical care, food assistance, the provision of much-needed 
relief supplies, and the protection of vulnerable populations.
                              medical care
    For almost 2 years, the U.S. Government has provided emergency 
medical care to those caught in the crossfire. Today, we support 260 
medical facilities across Syria. These field hospitals and makeshift 
clinics have treated more than 940,000 patients and performed more than 
113,000 surgeries. We have trained over 1,500 Syrian volunteers to 
provide emergency first aid care.
    With the onset of warmer weather and communicable diseases on the 
rise last spring, we worked with partners to establish an early warning 
system for communicable diseases, which require early detection and 
fast response to prevent devastating consequences. We note with great 
concern the 10 cases of polio affecting underimmunized children under 2 
in Syria's Dayr az Zawr Governorate that have been confirmed by the 
World Health Organization (WHO). WHO reports that immunizations have 
started in the area, but we remain concerned about the spread of this 
crippling and potentially deadly infectious disease.
    The United States has also provided mental health support--such as 
operating child-friendly spaces, conducting emergency psychosocial 
first aid, and trainings in child protection--for more than 26,000 
vulnerable people in internally displaced persons (IDP) camps and host 
communities. None of this vital medical assistance would be possible 
without the courage of the Syrian health workers who risk their lives 
on the front lines every day.
                            food assistance
    The United States remains the single largest donor of emergency 
food assistance for the Syria crisis. Our partners, the U.N. World Food 
Programme (WFP) and nongovernmental organizations, now reach more than 
3 million people inside Syria and over 1 million Syrian refugees in 
Jordan, Lebanon, Turkey, Iraq, and Egypt each month--and U.S. food aid 
presently accounts for more than one-third of all food assistance 
received by conflict-affected Syrian families.
    USAID's Emergency Food Security Program enables us to deliver food 
assistance rapidly through a variety of flexible mechanisms--including 
local and regional purchase and voucher programs--that allow us to 
address food needs of Syrian refugees and invest in neighboring 
communities. Staying flexible is a central part of our approach and, 
without question, adds to our ability to help meet daily needs. Since 
January, for example, through partnerships with NGOs, we have supported 
delivery of approximately 18,000 metric tons of food to conflict-
affected families in Aleppo governorate not reached by WFP, feeding 
over a quarter of a million people on a daily basis.
                            relief supplies
    With millions more displaced this winter than last, fierce winter 
forecasts, and heightened vulnerability after another year of conflict, 
the United States is focused on mobilizing a significant winterization 
response. In addition to basic supplies--communal cooking kits, 
blankets, mattresses, clothing, plastic sheeting, hygiene kits, water 
jugs--we are also improving infrastructure and shelters in camp and 
noncamp areas.
                               protection
    All our humanitarian assistance programs seek to reach the most 
vulnerable populations--women, children, persons with disabilities, the 
elderly--who often face extraordinary levels of violence and abuse. 
Sadly, women and children often fare the worst in war, and the crisis 
in Syria is no exception. Gender-based violence (GBV) is a serious 
concern. U.S. Government medical support includes services for GBV 
survivors through women's health centers, mobile clinics, and outreach 
teams that provide health and psychosocial services to women who 
desperately need it. Simple solutions, like supporting all-purpose 
women's washing and gathering spaces in camps for the internally 
displaced, can prove life-changing.
    Building on the momentum of the U.S. National Action Plan on Women, 
Peace, and Security as well as the U.S. Strategy to Prevent and Respond 
to Gender Based Violence Globally, Secretary Kerry announced a new $10 
million global initiative last month in New York, called Safe from the 
Start--a joint Bureau for Population, Refugees, and Migration/USAID 
commitment to elevate our focus on the scourge of GBV. In Syria, that 
means we have looked at all of our programs with the goal of 
prioritizing and incorporating protection for women and children.
                             key challenges
    But the single-greatest factor limiting humanitarian aid remains 
the ongoing, intensifying conflict. Despite persistent pushing for 
greater humanitarian access, including across borders, the U.N. still 
estimates that 2.5 million people in need have not received help for 
almost a year. The regime continues to actively blockade whole 
communities.
    This siege on civilians is unconscionable. The recently passed PRST 
lays down markers for the Syrian regime regarding the world's 
expectations that it will provide international humanitarian relief 
agencies with the immediate and unfettered access they have long been 
denied. It outlines very specific steps that are essential to 
facilitate the expansion of humanitarian relief operations and address 
the obstacles that already exist on the ground. These steps include:

  <bullet> Immediately demilitarizing medical facilities, schools, and 
        water stations and refraining from targeting all civilian 
        objects;
  <bullet> Approving access for additional domestic and international 
        NGOs;
  <bullet> Easing and expediting the operationalization of humanitarian 
        hubs, the entry and movement of humanitarian personnel and 
        convoys by granting necessary visas and permits;
  <bullet> Accelerating the importation of humanitarian goods and 
        equipment like communications tools, protective armored 
        vehicles, and medical and surgical equipment; and, most 
        importantly,
  <bullet> Facilitating humanitarian workers' immediate and unfettered 
        access to people in need.

    There are concrete steps that the Syrian regime can take to allow 
the international community to reach innocent civilians caught in the 
crossfire. For example, we have seen some instances of aid delivery 
across battle lines so we know such access is possible. Through 
delicate negotiations with the Syrian Government and opposition 
factions, and with the critical partnership of the Syrian Coalition, 
approximately 30 U.N.-sponsored convoys reached displaced Syrians 
through cross-line efforts from January to September 2013. But more 
help is urgently needed, and time is not on our side.
    The U.S. Government is seized with this issue, but getting the 
Syrian regime to comply will require coordinated diplomatic support 
from all sides. We were encouraged by Russia and China's support for 
the PRST and now, this support must be followed with significant 
pressure. U.S. diplomats are working with key international actors that 
have influence in Syria to convince all parties to the conflict to 
expand humanitarian access now.
        assistance to neighboring countries and host communities
    With more than 2 million Syrian refugees in neighboring countries, 
this crisis is now truly regional, threatening the stability of nations 
struggling to support this massive influx. As these countries host 
growing refugee communities, our commitment is to continue to support 
both refugees and those host communities bearing much of the brunt.
    Beyond food, medical care, and other traditional relief supplies, 
U.S. Government assistance for refugees includes innovative methods to 
meet the needs of refugees living in urban populations, such as food 
vouchers and debit cards for use in local markets, and cash assistance 
to help refugees pay rent. On my last visit to the region in August, I 
met with Syrian refugees now living in the outskirts of Amman, who 
named the cost of rent as their greatest concern.
    With the majority of Syrian refugees now living outside camps, U.S. 
Government support for food vouchers and other emergency food 
assistance to Syrian refugees now totals more than $177 million, 
injecting cash into local economies and alleviating pressures on 
communities that are hosting refugees.
    U.S. assistance for host communities was a major focus of my travel 
in August to Jordan and Lebanon, where in some cases Syrian refugees 
now outnumber the Jordanian or Lebanese people in villages, and vital 
resources like water are already scarce. In both countries, we see that 
the poorest communities clearly overlap with the greatest concentration 
of refugees. Tensions between locals and refugees over resources exist 
in both countries, so we are paying close attention to key 
infrastructure, health, and education programming and ramping up 
efforts to help ensure delivery of essential services at the local 
level so host communities directly benefit from our assistance.
    In Jordan, where domestic water supply is among the lowest in the 
world, USAID's Complex Crises Fund (CCF) not only helps communities 
withstanding mass influxes of refugees to access clean water themselves 
but also to improve water use efficiency, meaning they can provide 
water for their livestock and sustain their livelihoods. More recently, 
we launched a $21 million Community Engagement Project that works 
closely with communities to identify their most pressing challenges and 
meet growing community needs: school infrastructure, public parks 
preservation, lighting, medical equipment, and youth clubs. These 
programs are helping the Jordanian people and their communities cope 
with the influx and continue to welcome the influx and continue to 
welcome Syrian refugees.
    In Lebanon, where an estimated one quarter of the population is now 
Syrian refugees and the spillover effects of the crisis appear the most 
acute, we are similarly focused on water and education as well as a 
value-chain development program to advance agriculture in heavily 
affected areas like the Bekaa Valley in Lebanon's northeast.
    Providing support to host communities will be an ongoing challenge 
for the international community. We are partnering with host country 
governments and the international donor community to prioritize 
development assistance needs, including in Jordan where the Government 
of Jordan, along with UNHCR and UNDP, is developing a Host Community 
Coordination Platform to coordinate direct humanitarian and development 
support to host communities. At the request of the Government of 
Lebanon, the World Bank recently released a ``Roadmap'' identifying 
priority assistance areas to help Lebanon manage the impact of the 
Syrian crisis and develop the public service infrastructure needed to 
sustain the dramatic increases in its population.
    These partnerships and assessments are vital to charting an 
effective way forward as we work to address the long-term effects of 
Syria's protracted conflict. Well aware that Syria's humanitarian 
crisis now presents a fundamental development challenge for the region, 
international humanitarian and development donors will reconvene in 
Amman next week to continue mapping coordinated efforts essential to 
alleviating immediate pressures on neighboring populations--and 
ensuring the stability and long-term development of countries in the 
region.
                               conclusion
    Humanitarian assistance will not end the bloodshed in Syria, but it 
is saving lives and helping alleviate the very real pressures this 
protracted conflict has put on the lives of everyday people throughout 
the region. The United States remains fully committed to a strong 
humanitarian response--and to coordinating closely with our 
international development partners--to help the Syrian people and 
Syria's neighbors endure this crisis. Your congressional support has 
been vital in enabling life-saving humanitarian assistance work 
throughout the region.
    The breakthrough agreement among members of the United Nations 
Security Council on the elimination of Syria's chemical weapons 
program, followed closely by the issuance of a statement endorsing 
emergency assistance to Syrians, has given new hope to aid workers 
inside Syria. These aid workers, most of them Syrian, have risked their 
lives daily to ensure help reaches those most in need, but effective 
humanitarian action will require cooperation from the Assad regime, 
opposition groups, and the foreign governments that until now have 
allowed their Syrian allies to stand in the way of or undermine relief 
operations.
    Thank you for your time, and I look forward to your questions.

    The Chairman. Thank you all for your testimony.
    We will start a round of questions here. Let me say, 
Ambassador Ford, I heard your statement and I appreciate your 
incredible service, but I did not hear a strategy. That to me 
is challenging at this date.
    Now, I understand that in Syria there are not great 
options. This is a pretty bad hand that the region, as well as 
all of us who care about it, have been dealt. But in the midst 
of that there has to be some effort of a strategy to get us to 
where we need to be. Assad is saying he will attend Geneva if 
there are no preconditions. That is a redline for the 
opposition. The opposition, as you stated is fragmented, has 
its own work to do to offer a vision of where they will come.
    Assad's talking about running for President in 2014. He 
sees himself as an indispensable partner as it relates to the 
elimination of the chemical weapons program. And the Russians, 
in a war that you described in which there is no one to deliver 
a knockout punch, will continue to stand by Assad.
    So in the face of all of that, what is our strategy? What 
is our strategy to get the Russians? What do we need to 
determine with the Russians what it will take for them to 
change their calculus? What is our strategy to get the 
moderate, vetted elements of the opposition to be able to come 
together with a plan for the country?
    What is our strategy to be able to get the Russians to help 
us, assuming that can be done, to press Assad to ultimately 
leave? What is our strategy to continue to move forward on the 
chemical weapons destruction, as we are trying to do all these 
things together?
    I just do not get a sense that we have a strategy. I wish 
that the authorization that this committee passed back in May 
would have been used at that time, because the dynamics were 
different and I think we could have far better effected the 
efforts toward the negotiation that we still aspire to. But the 
administration chose not to use that at the time.
    So give me a sense of what this strategy is, because I did 
not glean it from your remarks?
    Ambassador Ford. Senator, it is a two-track strategy. It is 
a two-track strategy. First, keep pushing to get the two sides 
to the table. But we understand that the Assad regime is a very 
tough, brutal regime. Nancy went through some of the details; 
the suffering inflicted on the Syrian people. So we will have 
to have pressure on the regime to get them to make concessions 
at the table.
    Now, the pressure can come from a couple of places. One, it 
will come on the ground. So we have--we the Americans--
organized a group of 11 countries, which I referred to, who are 
the primary backers of both the political and the armed 
opposition, and we coordinate our efforts on that. We call that 
group the London 11. It includes the Gulf States, it includes 
European states. The main backers of the Syrian opposition meet 
regularly, both at my level and at the Secretaries level, most 
recently, as I said, October 22.
    So push for negotiations, but help the moderate opposition 
be in a position itself to press for concessions from the 
regime when it gets there.
    Now, the other source of pressure will be the Russians. 
Secretary Kerry has talked extensively with Russian Foreign 
Minister Lavrov. They speak regularly, several times a week, on 
Syria. The Russians share a big interest with us in Syria about 
not having that country, as it becomes a failed state, become a 
base of extremism. They have their own national security 
interests in that respect.
    They are concerned about the country, were Assad to leave, 
becoming a totally anarchical place, and they therefore talk 
about the need for a managed transition. But you cannot have a 
managed transition until the opposition itself puts forward 
proposals that the Russians and others can look at, Senator. 
Otherwise, we are in a sort of an absurd chicken and egg 
situation.
    So I have been talking extensively to the opposition about 
putting some things on the table that the Russians and the rest 
of the international community and, most importantly, other 
Syrians can look at to say there is an alternative.
    The Chairman. Can you give us a sense of what that would 
be, that would assuage both the Syrian people and the Russians 
to unite behind the opposition?
    Ambassador Ford. For example, if Assad were to go, Senator, 
who would replace him as President and what would his 
authorities be? We have talked to the Russians extensively 
about what that would be and we have agreed with them that the 
new transition governing body will have full authority over the 
intelligence establishment, over the military establishment, 
over the financial structure of the country and the government. 
So we have agreed on that with the Russians.
    But now we need the opposition to come forward and say: 
This is how we would put it together. Very frankly, Senator, 
they were so busy pushing us to intervene militarily that they 
have left aside the need to put forward this alternative, which 
sooner or later must come. Sooner or later it must come.
    So were they to put that forward now, the Russians would at 
least have an opportunity to study it. I do not think they 
would accept it at face value. But it is something where you 
can begin a process. That is our strategy, to get a process 
started where all of us, moderate opposition, the United 
States, the international community, including the Russians, 
will then put pressure on the regime and the opposition to come 
to a final deal.
    The Chairman. Well, let me just say that in the midst of a 
civil war having a disparate group of opposition define a 
national agenda needs a lot of assistance at the end of the day 
to achieve it. And it also needs to have some understanding of 
what our baselines for the Russians if we are going to achieve 
it and see if they can be commensurate at the end of the day.
    When I talk about a strategy, this is--I would like to 
hear--and I am going to move on to Senator Corker. But I would 
like to hear in some setting the detail of what our effort is, 
because I just do not get the sense that we are headed anywhere 
there.
    Just one final question. Mr. Countryman, I applaud the work 
that is being done on the chemical weapons and it is a major 
concern. But originally public reports had that we knew that 
there were 45 sites. As I understand it, the Syrians declared 
23 sites. So what is the story with what we believe are the 
rest of the sites, and how are we ensuring that we are getting 
access to the entire inventory of what we believe exists in 
Syria?
    Mr. Countryman. Thank you, Mr. Chairman. On your earlier 
comment, I just want to say that, while al-Assad may see 
himself as indispensable to the elimination of chemical 
weapons, that is not our view. The Syrian Arab Republic, has 
accepted an obligation that is binding upon this government and 
binding upon the next government, which we hope to see soon. 
That is what increases the urgency of both destroying and 
removing chemicals as rapidly as possible, so that the regime 
cannot cling to its fantasy that it is an essential part of the 
process.
    We do have a strategy to move forward on chemical weapons 
destruction. We have a great advantage in this task over all 
the other tasks in Syria in that there is no opposition to it. 
Russia, the regime itself, the opposition, the United States, 
and the world all want to see these chemicals removed and 
destroyed rapidly. It is therefore not a political issue. It is 
not an issue on which there is a disagreement between the 
United States and Russia. It is rather a logistical and a 
technical issue.
    I would be happy to come back at any time and brief on the 
details of how we will get to complete elimination by the 
middle of next year.
    On your specific question, we have long tracked the sites 
that we believe are associated with research, development, 
production, and storage of Syria's chemical weapons program. 
The number of sites, as you note, that we have tracked is more 
than 40. The OPCW has talked this week both about visiting 21 
of 23 sites and it has also talked about visiting 37 out of 41 
facilities. It is not just a semantic issue whether we are 
talking about sites and facilities, whether we are 
doublecounting. It is, as you note, a serious question that 
needs to be addressed.
    We received, only on Monday, Syria's 700-page inventory of 
its holdings. We are studying it carefully. It is a classified 
document that we would be prepared at a later point to brief in 
a classified setting. But we do have the tools under the OPCW 
and under the U.N. Security Council resolution to resolve any 
discrepancies between what we believe and what the Syrians have 
declared.
    The Chairman. We will look forward to having a classified 
session to get to the bottom of how many of the sites that we 
believe are going to be pursued and what needs to be done to 
achieve that.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, again for your 
opening statement. I appreciated it.
    Mr. Ford, you are a figure that is held up by many in Syria 
and I want to thank you for coming before us today because you 
have to be incredibly embarrassed at where we are, and coming 
in and testifying, knowing what you know is happening in Syria 
to many of the people that you know. I know it has to be tough 
for you to do today.
    Let me just ask you this. The opposition that you know 
personally in many cases, are they faring better today since we 
moved toward trying to destroy the chemical weapons that are on 
the ground? Are they faring better since we decided not to go 
ahead with military force than they were before this discussion 
began?
    Ambassador Ford. They are deeply disappointed, Senator, 
that we chose not to use military force. I have heard just 
anguish from people that I have talked to over there. And I 
have had to explain the administration's rationale, and I have 
had to emphasize to them that our primary goal here is to find 
a political solution----
    Senator Corker. Let me. I am not so concerned about the 
military force component. What I am concerned about is I would 
just like for you to tell me that since we have gone through 
this pursuit with Russia relative to Mr. Countryman's work, 
which I appreciate, is the opposition on the ground faring 
better or worse since we are now pursuing the destruction of 
chemical weaponry?
    Ambassador Ford. Their position on the ground, Senator--I 
am going to leave aside the morale, which I just addressed. The 
position on the ground has not changed very much. The regime 
has made some gains in the north, to the southeast of Aleppo. 
The opposition has made some gains in the south around Daraa. 
But as I said before, neither side in this awful, grinding 
civil war is able to do a knockout punch right now.
    One problem which is really hampering the opposition, 
Senator, is the really bitter divisions among the armed groups. 
Even in the last months, al-Qaeda groups, especially a group 
called the Islamic State for Iraq and the Levant, actually 
started fighting with the people that we support that were 
fighting the regime. So Salim Idriss and his people have been 
fighting a two-front war, which has seriously hampered their 
efforts against the regime. So in that sense, Senator, I think 
that in particular has made their position more difficult.
    Senator Corker. Well, and I think the humanitarian 
situation, as Ms. Lindborg has laid out, is worse than it was a 
few months ago.
    Let me just talk. Look, you know these folks. Some of us 
have become familiar with these folks in refugee camps after 
multiple trips. We had a strategy that we were building toward 
in September--early September. The administration has been 
incredibly, incredibly slow, and obviously this covert policy 
that everybody in the world knows about, where we are going to 
train folks covertly, so we do not have to talk about it in 
committee settings like this--but basically we have trained 
about a thousand folks, and our intelligence folks, I guess, 
can train 50 to 100 a month.
    And we had some kind of strategy that was a minor strategy, 
but basically do we really have a strategy at all relative to 
the opposition and building their strength against al-Qaeda on 
the ground and the regime?
    Ambassador Ford. Senator, we do. Today, for example, we 
delivered trucks to Salim Idriss's people inside Syria. That is 
the first time we have delivered trucks.
    Senator Corker. You were going to deliver those trucks when 
I was there in August, the next week. Just unbelievable. So you 
delivered trucks, but does he have weaponry?
    Ambassador Ford. Yes.
    Senator Corker. Does he have that lethal weaponry? Oh, he 
does?
    Ambassador Ford. He does have lethal weaponry, Senator. I 
am not here going to talk about anything except what the State 
Department is doing. But the logistical help that----
    Senator Corker. The State Department is delivering 
weaponry?
    Ambassador Ford. Senator, I did not say the State 
Department was delivering weaponry. I said we delivered trucks 
today. And that is important, Senator, because he has got to 
have a logistical capability. He was renting trucks before, 
Senator. So this----
    Senator Corker. I met with Idriss in August and sat down 
with him, and those trucks were coming the next week. So now 
you delivered trucks at the end of October.
    Ambassador Ford. Senator----
    Senator Corker. Are you satisfied with the strategy we have 
in Syria right now with the opposition? Do you feel good about 
it? When you talk to people on the ground and in these refugee 
camps, do you feel good about the strategy that we have now 
with these people that we have left out on a limb and told them 
we were going to support their efforts against this regime and 
against al-Qaeda? Do you feel good about what our country is 
doing with the opposition right now, to allow them to have some 
kind of say-so in the future of this country?
    Ambassador Ford. Senator, there is not a person on my team 
at the State Department who does not feel frustrated--
frustrated by the Syrian problem in general. But I have to say 
we do provide support to help them against the regime. We 
provide a lot of support. You may discount what we do, but it 
matters to Salim Idriss. Every time I talk to him he thanks us 
for what we do.
    Would they like more? Of course they would. They would like 
more from a lot of countries.
    In addition, the work that we are doing to help activists 
and political people that are trying to hold things together in 
places like Aleppo and Idlib and Raqqah just to keep the 
hospitals running, to keep electricity in hospitals, to provide 
clean water, it matters hugely to them.
    Are there greater needs? Of course there are. But our 
resources ourselves are not unlimited. So we are doing what we 
can with what we have.
    But the problem itself is tragic. I know people myself who 
have been killed. It is tragic and we want to help them. But 
ultimately, Senator, Syrians must fix this problem. Ultimately, 
Senator, it is going to require them to sit down at a table. 
The sooner they start, the better. But in the meantime, we will 
keep helping the opposition, Senator.
    Senator Corker. I think our help to the opposition has been 
an embarrassment, and I find it appalling that you would sit 
here and act as if we are doing the things we said we would do 
3 months ago, 6 months ago, 9 months ago. The London 11 has to 
look at us as one of the most feckless nations they have ever 
dealt with.
    For you to say that these trucks are being delivered today 
is laughable. I mean, these things have been committed months 
ago. I have just got to tell you, I respect your care for 
Syria, I really do. I could not be more embarrassed at the way 
our Nation has let people, civilians, down on the ground in the 
way that we have.
    I know that Russia is driving this now. I mean, what we 
have really done is turn the future of Syria over to Russia. 
They have their hands on the steering wheel. I do not know how 
you could feel good about the humanitarian crisis that is 
taking place. I do not know how you could feel good about how 
our partners, their feelings about our reliability.
    But I want to tell you again, I appreciate your concern for 
the people of Syria. I cannot imagine you can sit here with a 
straight face and feel good about what we have done. I hope at 
some point this administration will sit down and develop a 
strategy, not only for Syria, but for the region, because it 
appears to me after multiple, multiple trips, this 
administration acts on an ad hoc basis, looks for opportunities 
to slip the noose, as they most recently did in Syria. I hope 
that you will help them develop a longer term strategy.
    The Chairman. Senator Cardin.
    Senator Cardin. Well, let me thank all three of our 
witnesses. Ambassador Ford, thank you for your service, a 
distinguished career in diplomatic service, and all three of 
you for what you have done.
    There are two related issues here. We have a civil war, in 
which the United States has picked a side. I would agree with 
the chairman and the ranking member, it has not been clear as 
to what our role is in regards to that civil war, although we 
have picked a side and we are providing help to the opposition.
    Then there was the use of weapons of mass destruction--
chemical weapons. President Obama was very clear that we would 
not tolerate that, and if necessary we would use force. This 
committee supported the President in that decision that 
chemical weapons cannot be used without a response from the 
international community.
    So you are here today to say that you are following up on 
destroying those or removing those chemical weapons. But I did 
not hear any one of you say anything about the person who is 
responsible being held accountable. I hear you say that they 
are going to be negotiating between the government and the 
opposition on a new government. I heard you say that Assad will 
probably not be part of that because the opposition has a veto 
right. It seems to me that we are so quiet about holding those 
responsible accountable for international criminal actions and 
that we seem to be timid in raising that subject because we are 
afraid that makes negotiations more complicated.
    But if you do not mention them, then we are not going to 
get that type of accountability and people will know 
internationally it is OK to use these weapons. Maybe they will 
try to take them away from us, but we can survive. And they 
should not get that message.
    So can you reassure this committee and the American public 
that our commitment is to make sure that President Assad is 
held accountable and those responsible for killing the people 
with the use of chemical weapons will be--part of our 
negotiating strategy is to make sure that they are held 
accountable for their criminal actions?
    Ambassador Ford. Senator, we have repeatedly stated, 
repeatedly, that regime officials are going to be held 
accountable. The State Department's public statement in the 
wake of the August 21 use of chemical weapons in the suburbs of 
Damascus specifically highlighted that. And many times I 
personally, and the Secretary himself, have talked about 
accountability.
    Just a couple of things on that. Number one, with the 
support of the Congress we are actually training Syrian 
investigators in how to investigate and develop war crimes 
dossiers. We are doing that now.
    Second, we are in discussions--colleagues at the State 
Department--with international both governments, organizations, 
and jurists, about what would be the best judicial structure in 
which to try these war crime dossiers that would be developed.
    We take accountability extremely seriously and we do intend 
to help Syrians hold people accountable, with the work of 
international partners.
    Senator Cardin. Will this be a subject on the negotiations 
between the opposition and government?
    Ambassador Ford. I have no doubt of that, Senator, because 
the opposition will insist upon it.
    Senator Cardin. Will the United States insist upon it?
    Ambassador Ford. Senator, we will absolutely support the 
opposition putting that forward. The United States, Senator, is 
not negotiating.
    Senator Cardin. I understand that, but the----
    Ambassador Ford. The Syrians will negotiate.
    Senator Cardin [continuing]. United States was prepared to 
use our military to stop the use of chemical weapons. Are we 
prepared to use our political might to make sure that those who 
use chemical weapons are held responsible for their actions?
    Ambassador Ford. Senator, absolutely, and I have already 
talked about the resources we are already deploying to help 
make that happen.
    Senator Cardin. Let me move to a second subject, and that 
is this humanitarian disaster that is in Syria. One-third of 
their population has been displaced. They are up to about 5 
million internally displaced, 2 million externally displaced. 
The challenge of getting the relief into Syria to help the 
people who have been victimized is challenging.
    What support are we receiving from the international 
community to help deal with the humanitarian crisis during the 
civil war?
    Ms. Lindborg. There has been a massive mobilization of 
humanitarian assistance. The United States is by far the lead, 
but there are substantial contributions, especially from 
Europe. Kuwait hosted the U.N. appeal conference last January 
and has itself contributed a little more than $300 million.
    Notably, Russia and China have contributed very small 
amounts, and there is a goal to, especially as we look at the 
very extraordinary needs that continue to mount, to bring as 
many people into the financing of this humanitarian effort as 
possible.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Ambassador Ford, let me begin before I ask my questions: I 
do not want anything I ask or the tone of the questions or 
direction to, in any way, not reflect on the admiration I have 
for your service to our country and, not only that, but what 
you have shown as the consistent interest in the future of the 
Syrian people. But as a representative of the administration we 
have a chance to ask you questions about the strategy.
    Let me just begin with something I think I know the answer 
to. I know how you feel about this. You have referred 
repeatedly to how the future of Syria belongs to the Syrian 
people. We agree with that, but you also believe strongly, I 
think, that what happens in Syria is in our vital national 
interests.
    Ambassador Ford. Senator, just the fact that Syria has the 
risk of destabilizing the region and becoming a base for 
terrorists operating against us, absolutely.
    Senator Rubio. Right. So I just want to make that clear, 
because there has also been debate about why do we even care 
about what is happening in another country. This is not just 
another civil war. It has implications in the region.
    So here is why I ask you that. In a few moments, in the 
second panel we are going to hear from Ambassador Frederic Hof, 
who is going to testify, based on his written testimony, that 
Syria on its present course is becoming the worst of all 
conceivable scenarios, a failed state basically that is divided 
between Assad controlling a portion of the country, the Kurds 
controlling a portion near the Turkish border, and then a vast 
area controlled by jihadists that could potentially use it--try 
to use it as a base of operations to conduct destabilizing 
operations in Iraq and eventually potentially in Jordan.
    Would you disagree with that assessment? Is that not at 
this point the trajectory that it is headed in?
    Ambassador Ford. Senator, I agree with that statement. But 
I would like to add something. That is why it is important for 
countries in the region, for the Russians, for the Chinese and 
the members of the Security Council, the Permanent 5, the 
United Nations. Everybody has to do more, because right now it 
is going in the worst direction.
    Senator Rubio. Well, the problem with that--and I do not 
want to get into a debate about it--I am not sure the Russians 
all really much care about the destabilizing influence of Syria 
in the region. They care more--in fact, I think it is in their 
national interest, at least they view it this way, that this 
destabilization might be geopolitically advantageous to them.
    But here is why I am asking you that. The right goal here 
would have been to try to empower nonjihadist opposition forces 
within Syria to do two things: Number one, have the capacity to 
drive Assad out of power, whether it was negotiated or 
otherwise, and create a functional state to replace him; and 
number two, to leave no space within Syria for these foreign 
fighters, these jihadists, to come in and create the 
operational space and capacity that they have now created.
    That would have been the best strategy moving forward. But 
in order to do that would have required us to identify who 
these nonjihadist opposition forces were and then to help 
empower them, along with our allies in the region, to do so.
    So I want to again go back to the testimony that Ambassador 
Hof is going to offer, because he is going to point to the fact 
that it took us until December 2012 to finally recognize the 
Syrian National Coalition as the legitimate representative of 
the Syrian people. And even after that, two things happened: 
one, the United States and the United Nations continued to 
recognize the Assad-led government, a situation that, according 
to his testimony, and I agree with, had enormously bad 
humanitarian consequences for the people of Syria; and number 
two, without an alternate government providing services and 
reflecting the values, nonsectarianism and citizenship, many 
Syrians stuck with the devil they know, having been denied an 
alternative that they can see and evaluate.
    Lest we think that this is only limited to Syria, I want to 
go to the testimony we are going to hear in a moment from Dr. 
Gelb, who will testify that ``Yet another major reason for 
policy failure is a lack of a coherent, plausible, and workable 
strategy. This is not just on Syria policy,'' she goes on to 
say the following: ``Mideast leaders, without exception, say 
they don't know what the U.S. strategy is towards their country 
and towards the region. they say it's vague and ever-
changing.''
    So I close by asking you this. You say in your testimony 
``The conflict in Syria has fostered an environment that fuels 
the growth of extremism and al-Qaeda-linked groups are working 
to exploit the situation for their own benefit. There is a real 
competition now between extremists and moderates in Syria and 
we need to weigh in on behalf of those who promote freedom and 
tolerance.''
    ``We need to weigh in on behalf of those who promote 
freedom and tolerance.'' And I take it you say that because in 
the absence of doing that, by not empowering these folks, you 
are actually de facto empowering the people who do not promote 
freedom and tolerance.
    So here is my question: Why did we not do it sooner? 
Because in foreign policy doing the right thing is not the only 
thing. You also have to do the right thing at the right time. 
Why did it take so long to reach this conclusion? And now we 
find ourselves in a situation where this thing that you talk 
about doing, weighing in on behalf of those who promote freedom 
and liberty and tolerance, it is harder than ever, and it may 
even be impossible. Why did we not do it sooner?
    Ambassador Ford. Senator, the Syrian opposition itself from 
the beginning was very atomized. That is actually how it 
survived the regime's repression, because it did not have any 
clear leaders. It was a bunch of different neighborhoods with 
neighborhood activists. There was no national leadership. It is 
very hard to build up something that itself is still very 
incoherent.
    It took a long time for the opposition coalition to come 
together. You are right, we only recognized it in December 
2012. That is true, Senator, but it was only formed in mid-
November. We recognized it as the legitimate representative 3 
weeks after it was established. So I do not think we delayed 
too long.
    Senator Rubio. You still recognized Assad.
    Ambassador Ford. We have reduced the Syrian Embassy here, 
Senator, to a visa officer and, frankly, that visa officer is 
there because a lot of the Syrian Americans here want Syrian 
passports and he is able to issue them.
    If I may continue, though, about the administration's 
policy with respect to the opposition, it is still a problem in 
terms of the divisions. They fight each other sometimes with 
the same vigor that they fight the regime, even politically. It 
took an enormous amount of lifting from us--and I was there 
personally in the region-- 
as well as some other members of this group of 11, to get the 
opposition coalition to bring in Kurds, to bring in 
representatives of the armed opposition so that they would 
reflect those people fighting on the ground, and to bring in 
people from these local councils that I referred to, so that it 
is not a purely expatriate organization.
    They themselves only move forward, Senator, at a Syrian 
speed. I wish they would go a lot faster.
    Now, our assistance, as I said, is not unlimited. Do they 
need more? Sure. We are trying to help them generate resources 
from other countries as well. This is--in a sense, Senator, it 
is a multilateral effort and we have helped organize the 
countries that provide assistance.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all very much, both for your service and for 
being here today.
    Ambassador Ford, there has been a lot of discussion so far 
about what our strategy is in Syria. You have laid out what you 
believe that to be. Can you talk about how we are judging 
whether we are being successful or not and at what point we may 
determine that the strategy is either successful or not 
successful and we may need to make a change?
    Ambassador Ford. Senator, we think that the destruction of 
the regime's chemical weapons is a huge success if, in fact, it 
is carried out fully, and Assistant Secretary Countryman talked 
to that. That was a core U.S. national security interest. I 
remember when I came to this committee as the nominee to be 
Ambassador 3 years ago we talked about those chemical and 
nuclear weapons. So that is a success.
    Can I say that our efforts to create a political solution 
or to contain the civil war are a success? No. We are still 
working on that very hard. But the situation itself in the 
country is still deteriorating. But we do not see a way for 
this to be solved militarily. In a civil war where communities 
think it is existential, that if they surrender they will be 
murdered, we have to build a political set of agreements 
between communities. Otherwise the fighting goes on 
indefinitely.
    Senator Shaheen. To what extent are our efforts with the 
London 11, as you say, actually having an impact? Are we 
coordinating closely with the Qataris and the Saudis and others 
who are interested in what's happening in Syria?
    Ambassador Ford. Senator, when I compare it to 14, 15 
months ago, it is a lot better. There is better coordination of 
assistance flows into General Idriss and into the political 
opposition. That is better. But it is not perfect and there 
could be better coordination still, frankly.
    Senator Shaheen. How much assistance, lethal assistance, do 
we still think is being provided by the Russians?
    Ambassador Ford. Senator, I have actually never seen a 
detailed estimate of the dollar value of it, but I can say 
this, that it is substantial, that it has increased from a year 
ago. There are more deliveries. And in some cases they are 
militarily extremely significant. For example, General Idriss 
was telling me about how these refurbished Syrian air force 
jets--and he said they do not have very many, but he said the 
ones they have, when they are refurbished, make a huge 
difference.
    So I think the Russians would help everyone get to the 
negotiating table faster if they would stop these deliveries.
    Senator Shaheen. Are there efforts--I am sure there are 
efforts under way at the United Nations to try and address this 
and in bilateral discussions. But is there more that we can be 
doing? Are there more international partners that we can bring 
to bear to try and address this? And who are they and what are 
they?
    Ambassador Ford. Senator, there is no real effort at the 
United Nations that I am aware of.
    Senator Shaheen. Should there be?
    Ambassador Ford. I do not think the Russians are going to 
pay much attention to recommendations from the United Nations. 
But I can tell you that we have had--including at the level of 
the Secretary, we have had a lot of discussions with the 
Russians about this.
    I will, if I can, if I can take the time just to share a 
quick story. Working with some members of the London 11 
countries, we were able to actually turn back a Russian 
delivery. We convinced an insurance company to withdraw its 
insurance coverage for the ship delivering it. But that is a 
rare success, Senator, frankly. It would be great if we could 
make better progress with the Russians.
    Senator Shaheen. Mr. Countryman.
    Mr. Countryman. The Russian deliveries have become more 
significant, probably more significant than what Iran provides 
in terms of military assistance. I noted Senator Corker's 
statement of concern about the Russians having their hand on 
the steering wheel in Syria. There is something to that, but 
what is not noticed is that that costs the Russians in 
credibility with the rest of the Arab world and with the entire 
region when they give their unswerving support to the Syrian 
regime.
    Senator Shaheen. Thank you.
    Mr. Chairman, I am over my time, but can I ask one more 
question?
    The Chairman. Yes.
    Senator Shaheen. For Ms. Lindborg: You talked about the 
vaccination challenges as we are looking at a potential polio 
outbreak in Syria. Can you talk about whether there is more 
that we should be doing to try and address that before it 
extends across the Middle East in a way that would have 
significant implications for health and safety to people 
throughout the region?
    Ms. Lindborg. There is an actual outbreak with the 10 
confirmed cases. The concern, of course, is that, as you have 
probably seen in the papers, each of those cases represents the 
possibility of another 2,000 cases.
    WHO has already mounted both a campaign to vaccinate inside 
Syria as well as in the region. So they are driving forward. 
The key will be to ensure that all parties grant access to 
those workers who are administering the vaccines.
    Senator Shaheen. I understand that. I would hope that we 
are doing everything we can to pressure the Russians, the 
Iranians, and everybody else in the Middle East to support this 
effort, because it has implications for everybody.
    Ms. Lindborg. Absolutely. We are calling on all parties to 
ensure that that campaign can go forward.
    Senator Shaheen. Thank you.
    Ms. Lindborg. Thanks.
    The Chairman. Senator Johnson has yielded his time to 
Senator McCain.
    Senator McCain. I thank you, Mr. Chairman. I thank the 
witnesses.
    Ambassador Ford, I would just like to point out, in 
response to the chairman's question about a strategy, you 
articulated goals. You did not articulate a strategy.
    To call the categorizing and removal of chemical weapons a 
huge success, it may be, but we are now in the Orwellian 
situation where the Russians are assisting us in our 
irreplaceable part of the scenario of identifying and removing 
chemical weapons, while delivering, as you just stated, 
increasing amounts of conventional weapons. As someone pointed 
out, a mother watching a child starve to death is very--it is 
not really comforting that that child has not been killed by a 
chemical weapon.
    Your continued reliance on the Russians I find just such 
defiance of the history of Russian behavior that it is 
absolutely remarkable.
    You continue to call this a civil war, Ambassador Ford. 
This is not a civil war any more. This is a regional conflict. 
It spread to Iraq. We now have al-Qaeda resurgence in Iraq. It 
is destabilizing Jordan. Iran is all in. Hezbollah has 5,000 
troops there. For you to describe this as a, ``civil war'' is a 
gross distortion of the facts, which again makes many of us 
question your fundamental strategy because you do not describe 
the realities on the ground.
    Now, a usual mouthpiece for--excuse me. A usual 
spokesperson for the Obama administration is Mr. Ignatius. Now, 
he writes this morning in the Washington Post, and I quote, 
``The centerpiece of U.S.-Saudi friction is the 
administration's more restrained approach in Syria. Obama has 
decided to limit the U.S. commitment there to dismantling 
chemical weapons in a joint effort with Russia, providing 
humanitarian relief for refugees, who may experience massive 
suffering and loss of life this winter, and catalyzing a 
political process to replace President Bashar Assad. What Obama 
is not prepared to do is topple Assad militarily. `We are not 
seeking to help the opposition win a civil war,' said a White 
House official. While the United States will continue to 
provide overt and covert aid to the rebels, the goal is to 
strengthen their negotiations at an eventual peace conference 
in Geneva, not ultimate''--``not military victory.''
    Then he goes on to say: ``But let's be honest. This is 
basically a formula for stalemate in Syria, with continued 
carnage and al-Qaeda growth there.''
    Did Mr. Ignatius adequately, correctly describe the Obama 
administration's strategy?
    Ambassador Ford. Senator, we do not think there is a 
military solution to the conflict in Syria.
    I agree with you, by the way, it has a regional aspect.
    Senator McCain. Do you believe if Bashar Assad has the 
military advantage on the ground that there is a solution?
    Ambassador Ford. I do not think Bashar al-Assad can win 
militarily either, Senator. He has tried very hard for 2\1/2\ 
years.
    Senator McCain. Does he have the advantage on the ground 
now? Do you believe he has the advantage on the ground now?
    Ambassador Ford. Only in a few places, like up around 
Aleppo. He has a disadvantage on the ground in the east and in 
the south and even in places like Idlib.
    Senator McCain. His killing remains unchecked, Ambassador 
Ford. Come on, let us--it seems like that is a satisfactory 
outcome to you. The fact is that he was about to be toppled a 
year ago or a little over a year ago. Then Hezbollah came in, 
then the Russians stepped up their effort, then the Iranian 
Revolutionary Guard intervened in what you call a, ``civil 
war,'' and he turned the tide. And he continues to maintain his 
position of power and slaughtering innocent Syrian civilians.
    And you are relying on a Geneva conference, right?
    Ambassador Ford. Senator, first of all, I would agree with 
much of what you said there in terms of the balance shifting 
against him and the intervention of Hezbollah helping the 
regime enormously. I think more and more the regime is 
dependent on foreign manpower because of the manpower shortages 
I mentioned.
    But our goal ultimately is to get Syrian communities that 
are afraid of each other to somehow come to a political 
agreement. I cannot emphasize that enough, Senator. Until the 
Alawi community that is backing Assad feels that it will not be 
slaughtered, it really does not even matter if Hezbollah is 
there; they will keep fighting. So that is why I talked about 
the need, while we support the moderates in the opposition, 
Senator, for the opposition itself also to put forward 
political proposals. Now is the time.
    Senator McCain. Well, again realities of warfare, 
Ambassador Ford, are that someone believes that they can stay 
in power, which obviously Assad can, that they are not ready to 
negotiate their departure. That is a fundamental principle, and 
for you to think otherwise obviously is bizarre.
    But let me just say again, the reason why the Saudis have 
divorced themselves from the United States of America is 
because of what you just articulated to Senator Corker: trucks. 
That is a great thing, trucks. As shiploads of weapons come in 
to the Russian port, as planeload after planeload land and 
providing all kinds of lethal weapons, and we are proud of the 
fact that we gave them trucks.
    I am now at a position, tragically, where I now will have 
to rely on the Saudis to provide them with the weapons that 
they need, because it is patently obvious that the United 
States of America is not going to do so. In the testimony of 
the witnesses who follow you, we are seeing an endless 
slaughter, and this is a shameful chapter in American history.
    I thank you, Mr. Chairman.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Chairman Menendez, for holding 
this critically important hearing. And I want to thank our 
panel of witnesses for addressing the concerns of the committee 
and the many unanswered questions that remain with regard to 
U.S. policy and our path forward in Syria.
    While I am pleased that we were able to find a way to avert 
the need for military action last month following this 
committee's strong approval of an authorization of the use of 
force, in my view we cannot forget--should not forget that 
Assad has murdered more than 100,000 of his own people, and 
this unconscionable violence, as you have testified, continues 
to this day, not only through the heinous attack using chemical 
weapons that killed 1,500 innocents earlier this year, but 
through the ongoing grinding, medieval siege warfare that was 
described in your testimony.
    I am pleased some real progress is being made in the 
removal of the means of delivering chemical weapons and that we 
are in the process of exhausting diplomatic alternatives to 
military force. But I find it frankly jarring at the same time 
that 6 weeks ago we sat in this same room and approved a strong 
policy, directed in part by President Obama, of holding Assad 
accountable for his crimes, while also continuing to stand with 
the Syrian people, and yet today we do not seem to be making 
progress on a number of those essential shared commitments.
    Let me just start, if I could, Assistant Administrator 
Lindborg. When I visited Syrian refugees earlier this year in 
Jordan, they expressed extreme frustration, anger, 
disappointment about delays in the promised delivery of U.S. 
assistance and support. In your testimony you have documented 
some of the ways that we have delivered a significant amount of 
support all across the country.
    Would you just say a little bit more about what has been 
done to address logjams and ensuring the delivery of assistance 
to Syrians both within Syria, but also refugees in Jordan and 
in Turkey, and to help mitigate the hugely destabilizing impact 
of this regional conflict on those vital American allies?
    Ms. Lindborg. Yes, thank you, Senator. There has been a 
huge international focus and a lot of work in the United States 
on looking at how to address this really crippling burden of 
the refugees in Jordan and Lebanon. One of the challenges is 
that so many of them are not in camps, but living with families 
and in host communities, where vital infrastructure is 
stressed.
    So we have moved to shift a lot of our development programs 
in Jordan, particularly in cooperation with the Government of 
Jordan, so that there is increased development investment in 
communities that are having stressed water infrastructure, 
electrical systems, schools, clinics. We have something called 
the Complex Crisis Fund that is working in communities in the 
north in particular to increase access to clean water, both for 
drinking and for their animals.
    This is part of what is happening across the international 
donor community, and there has been a lot of work done to 
create what is a comprehensive platform so that the relief and 
the development sides are working closely together, 
understanding that this is a severe and protracted crisis, so 
we need to really think of how to maximize our resources.
    In terms of increasing----
    Senator Coons. Thank you. If you will forgive me, we have 
very short time periods.
    Ms. Lindborg. OK.
    Senator Coons. I would welcome more detail.
    Assistant Secretary Countryman, I just wanted to both thank 
you for your work and your testimony and mention a high-level 
concern on my part about increasing coordination between the 
regime and Hezbollah. This terrorist organization, as you have 
testified to and others have spoken to, is sort of all in on 
the ground and is an ongoing threat to Israel and has targeted 
Americans in the past.
    Is there any evidence of a transfer of chemical weapons or 
advanced weapons to Hezbollah, and what sort of risk do you 
think we face in that regard as this conflict continues?
    Mr. Countryman. There is no such credible evidence. It is 
one of the things that drives United States-Russian cooperation 
on this particular topic, that the Russians share our concern 
that the longer these chemicals hang around Syria the greater 
the risk they could be diverted to extremist groups of any 
complexion, inside or outside of Syria.
    Senator Coons. Thank you.
    Ambassador Ford, if I might. One of my great concerns about 
the path that we have taken is the very deep sense of 
abandonment by the Syrian opposition and the Syrian people more 
broadly and my impression--I think this is a quote from your 
testimony--that they fundamentally do not trust the Assad 
regime and are concerned that external parties will cut a deal 
at the opposition's expense.
    While I recognize the challenges posed by internal division 
within the opposition, which you have spoken to at length, how 
has this frustration and this internal division manifested 
itself in terms of ongoing radicalization on the ground? What 
do you see as the trajectory? And how do we provide the vital 
support on the ground for the opposition, the vetted 
opposition, in a constructive way that pushes toward 
negotiations? And how are we dealing with the significant sense 
of abandonment on the part of the Syrian opposition by our 
recent actions?
    Ambassador Ford. It is really important, Senator, in order 
to 
undercut recruitment by groups like al-Qaeda for the Syrians 
themselves not to feel abandoned. I think that is just vital. 
So we ourselves on both a political level--for example the 
communique that we issued last week out of London with the 
other countries' ministers was actually very well received, and 
it underlined our support, said that Assad had no role in a 
transition government. It said that the regime is responsible 
for the conflict.
    Politically, I think they got a good message out of that. 
Not the first time, but it was needed then because of their 
disappointment about the not military----
    Senator Coons. Ambassador, this is the statement that says, 
quote, ``When a transitional governing body is established, 
Assad and his associates with blood on their hands will have no 
role in Syria''?
    Ambassador Ford. Correct.
    Senator Coons. Can we deliver on that?
    Ambassador Ford. We can, Senator, when we do get, one day, 
to a political negotiation along the lines of the Geneva 
communique, we can solidly defend the opposition's right to 
veto whoever and whatever goes in that transition government. 
And as long as the opposition does not want Assad and they veto 
him, we will back them up.
    The Chairman. Senator Coons, I am sorry. I am going to have 
to move forward. Thank you, but I am sure we will have the 
Ambassador available to you.
    Senator Kaine has deferred to Senator Markey. So Senator 
Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    I thank each of you for your service. You have got very 
tough jobs and I think we all know that. I also think that we 
have to approach all of this with a lot of humility, given what 
we have learned after we intervened in Iraq and Libya and 
Afghanistan, after what we have seen go on in Egypt. So we 
should just have a little humility in the United States in 
terms of our ability to control events on the ground in these 
countries in a way that allows us to basically in eye-watering 
detail be able to move the pieces around inside of any country. 
I just hope that we all keep a little bit humble here, given 
what we have already gone through over the last several years, 
notwithstanding our concern for the humanitarian crisis and our 
desire to see Assad be removed.
    May I ask you, Mr. Ford, if you could just give us a little 
bit of an update at the al-Qaeda forces coming from Iraq, on 
al-Nusra, on some of these other extremist groups, in terms of 
the movement that they are making, where they are making it, 
and where that support is coming from, so that we can 
understand the nature of the threat that we see to the 
moderates being successful?
    Ambassador Ford. First, Senator, I appreciate your 
understanding about the amount of resources we put in and our 
ability to control everything. I think that is exactly right. 
Ultimately this is a Syrian conflict. It is not an American 
conflict.
    With respect to al-Qaeda and al-Nusra, they have been very 
assiduous to take control of borders, Senator Markey. For 
example, their control of those borders delayed our aid 
deliveries into Syria. I know there was some frustration 
expressed earlier in the hearing about the delays. The delays 
were because we had to wait until our friends in the opposition 
recaptured border points so we could get aid back in to them.
    They have mainly focused on building up Islamic courts and 
structures of governance well behind the front lines of the 
fight against the regime. To my mind, Senator, they are, 
whether intentionally or not, they are almost acting as allies 
of the regime. It is a huge problem for our friends in the 
moderate opposition.
    The support comes mostly, Senator, not entirely but mostly, 
from inside Syria. For example, they have captured oil wells in 
eastern and northeastern Syria and they sell the oil, so that 
they in a sense are becoming more and more self-financed, which 
is a real problem. So now we are going to have to work with our 
friends such as Turkey and Jordan to shut off oil sales that 
they're trying to do, literally like tanker trucks.
    They also----
    Senator Markey. Are we working right now to accomplish that 
goal?
    Ambassador Ford. Yes, we have started. We have had to.
    Senator Markey. Great.
    Ambassador Ford. We have had to.
    But they also rely on things like extortion. They run 
rackets in cities they control, such as Deir ez-Zor and Raqqah. 
That is why they are actually now beginning to generate an 
anti-al-Qaeda reaction on the Syrian street in some of the 
places they control, which to my mind is a very positive 
development.
    Senator Markey. Now, who funded these groups initially in 
order for them to have the resources to take over the oil wells 
or to take over these cities in which they are now terrorizing 
the more moderate elements of the Syrian people? Who financed 
them from your perspective? Deal with the external resources 
that have been supplied in order to accomplish those goals for 
the most extreme groups?
    Ambassador Ford. Early on in the Syrian conflict, Senator, 
when they did not have control of oil wells and they did not 
have control of borders, they were absolutely getting financing 
from outside of Syria, through several private networks that 
were funneling money from places like the gulf, but even places 
in Europe. So we have also had to work----
    Senator Markey. Can you name the countries, please?
    Ambassador Ford. If I say ``gulf'' in an open hearing, 
Senator, I think that that is enough, and in Europe.
    So we have now opened discussions with those countries as 
well about shutting down those networks.
    Senator Markey. May I ask as well, the Iranians are still 
providing massive support to the Syrian Government. So even as 
we are negotiating with them on their nuclear weapons program, 
they are simultaneously undermining our efforts to bring a 
peaceful resolution to the war in Syria.
    If I may, Mr. Countryman. In the past week it has been 
reported that the Iranian Government wants to actually purchase 
eight new nuclear powerplants. How much would that complicate 
our ability to ever get a resolution if they ever did build 
eight new nuclear power plants in Iran?
    Mr. Countryman. The Iranian Government and the Russian 
Federation have long been in discussion about an expansion of 
nuclear power in Iran, Russian technology in Iran. They make 
announcements about it regularly. I think it is unlikely to 
proceed very far very fast until Bushehr, which has been on the 
verge of opening for many years, actually does begin to 
function.
    The negotiation of the 5+1 with Iran is complex enough as 
it is, but I do not believe that an expansion of nuclear power 
or an intention to expand that will happen much later really 
adds to the nature of the negotiation we are in right now.
    Senator Markey. May I just say that Iran is kind of a big 
part of this whole puzzle because of Assad, Hezbollah. 
Hezbollah--there it is sitting there--has a separate agenda 
that is totally contrary to our national interests. We are very 
fortunate that our deal with the Shah to sell them six nuclear 
power plants was not completed before he fell, or else the 
Ayatollah would have had six nuclear power plants worth of 
uranium and plutonium in that country. That would have been a 
disaster for us.
    And for us to just let them repeat history, because that 
has still been their plan, to use the civilian nuclear power 
plants as the cover for a nuclear weapons program--that we have 
to deal with it now rather than later. We have to make it as 
part of a program that says: You do not have an inherent right 
to these civilian nuclear power plants and we are going to 
block it, because if we do not we will return to this whole 
issue in another 20 years when those programs get converted to 
a nuclear weapons program with the next regime.
    So I just say to you, it is very important for us to look 
down the line here, to understand what the Iranians have as 
their goal, to create a regional hegemony, and Assad is still 
part of that, because I do not think that article 4 of the 
Nonproliferation Treaty is any longer valid in terms of the 
Iranians and their ability to actually qualify for civilian 
nuclear programs in the future. I just think it has to be 
halted, and I am going to work very hard to make sure that 
those eight nuclear power plants are never constructed and no 
one who is in alliance with us is ever allowed to transfer 
those technologies in the future under the guise of an IAEA 
that cannot sit by, from the history that we have already lived 
through.
    The Chairman. Senator Kaine.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Kaine. Thank you, Mr. Chairman and to the members 
who are testifying today. An observation and a couple of 
questions.
    Much comment around the table about our frustration, what 
is our strategy, the frustration you feel doing this work, the 
disappointment that members of the opposition felt when we did 
not undertake military action. So we are all grappling with 
this sort of frustration and challenge, potential loss of U.S. 
prestige in the area over this and over other items.
    I am really wrestling, Mr. Chair, with sort of at the root 
of this, having voted for the authorization with many members 
of this committee--and it is a vote I would willingly cast 
again tomorrow. I felt like crossing that line of use of 
chemical weapons against civilians necessitated that strong 
response. I think the fact that you both led us to that point 
changed the equation for Syria and Russia and created an 
opening to have the dialogue about chemical weapons. That is a 
good. That these weapons are being destroyed is a good. That 
the sites are being identified, the production being destroyed, 
is a good.
    But we see a whole lot of bad and we are still wrestling 
with it.
    But we do have to grapple with one thing. Even for such an 
obvious good as punishing a country for using chemical weapons 
against civilians, the American public was not really into the 
mission. We were not into the mission. Just as measured by what 
I was hearing from my constituents, they were telling me: We do 
not want to do this. We do not want to do this.
    If the effort had been described when we met in August as 
we are doing this, not because of chemical weapons, we are 
doing it to change a regime away, even from a murderous 
dictator like Assad, I think the population would have been 
even more overwhelmingly, the American public, saying we do not 
want to do this, because there is a fatigue that the American 
public are feeling now about the limits of our efforts in this 
part of the world. As Senator Markey mentioned, we have had 
hubris and now we have to have humility about the effects of 
our outcomes.
    So one of the issues I really think we are kind of 
grappling with--and I hope as a committee we may have a time 
when it is less back and forth with the witnesses, but with 
each other, to really talk about what our public is telling us. 
And again, even with that public feeling, I would vote for the 
authorization again tomorrow because I think crossing the line 
on the use of chemical weapons against civilians has got to 
have a consequence.
    But the notion of being more deeply involved in more aid to 
a shifting and fragmented opposition, there is a reason we are 
having a hard time coming up with a strategy and one of the 
reasons is that our public is telling us that they do not want 
us to do it. And whether that causes us to lose prestige abroad 
or not, that is what our public is saying to us.
    So we either have to make the case differently, explain the 
stakes in a different way, or grapple with what it means that 
our public, after 12 years of war in the general real estate, 
is now feeling fatigued about it.
    Those are big, tough questions. Let me jump to some--and I 
do not have answers to them; I am really struggling with them 
here--specific things.
    Ambassador Countryman, you were asked a question by the 
chair about this discrepancy in the sites, and you might have 
addressed it when I was out of the room briefly, but I wanted 
to come back to that a little bit. The OPCW--we have 
intelligence that suggests a number of sites. The OPCW has 
looked at 21 of 23 and might get to the other 2, but they are 
in contested areas.
    But I am assuming that the intel we have about additional 
sites that were not on the inventory is material that we share 
with the OPCW and we are trying to get them as much information 
as we can, so that they can expand the list of sites to be 
reviewed. This is the first time I have dealt with an issue 
about OPCW and inspections.
    But talk to me a little bit about what we share with them 
and then how they follow up on this information we give them 
about the insufficiency of the inventory.
    Mr. Countryman. Well, I think that we share information 
appropriately with the OPCW. It is a cooperative process. There 
are--well, let me start here, which is to say that we have 
received only on Monday of this week the comprehensive 
declaration by Syria of its holdings. It is over 700 pages. It 
is quite detailed. We are assessing it now, and there will be a 
point at which we will have some assessment of the gaps in that 
document, differences between what is declared and what we 
believe we know, that we could discuss in a more closed 
session.
    On the question of sites, we have the tools to reconcile 
any gaps, any discrepancies. Part of it I think may have a 
simple explanation. For example, OPCW in its statement 
yesterday refers to 23 sites, but it also refers to 41 
facilities.
    Senator Kaine. Right.
    Mr. Countryman. And covering differences in definition 
between ``sites'' and ``facilities'' is part of the answer. I 
do not want to speculate on what the rest of the answer is, 
only to emphasize we have the tools, the resources, to resolve 
those differences, and we will.
    Senator Kaine. One brief additional, if I may. Does the 
United States have confidence in the OPCW, in their technical 
capacity, their independence and objectivity?
    Mr. Countryman. In their technical capacity and 
objectivity, 
absolutely. They have done a remarkable job in a difficult 
security environment so far and we salute the organization and 
the inspectors of many different nationalities who have done 
that job.
    Senator Kaine. Great.
    Thank you, Mr. Chair.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you all for being here. I am sorry that I have missed 
a portion of the hearing. I had another one right around the 
corner.
    Just a few brief questions, some of which you may have 
touched on already. I know, Ambassador Ford, you spent some 
time already talking about the infighting currently that is 
happening within the rebel group structure. We had a lot of 
conversation here during our debate about reauthorization about 
the influence that the Jabhat al-Nusra and extremist groups had 
within that coalition, some of which as it turns out had come 
from people that were partially on the payroll of some of those 
opposition groups.
    But I know you have touched on this a bit, but having just 
come from a conference in Africa in which we were seeing some 
pretty unbelievable numbers of foreign fighters coming in from 
Europe and some pretty fierce competition amongst different 
rebel groups to recruit those foreign fighters, more now, even 
more dangerous and more extreme than Jabhat al-Nusra itself, 
can you talk a little bit about the infighting even now within 
the extremist groups? Forget the infighting that is happening 
in very public ways, with large numbers of fighters being 
killed, between the mainstream opposition forces and the 
extremist forces, but we now have just growing competition 
amongst Jabhat al-Nusra and their competitors to bring foreign 
fighters in.
    One of the benefits of it seems to be that we can track it 
pretty well because they spend so much time trumpeting their 
success in bringing in foreign fighters on Twitter and other 
social media outlets that we have a pretty good idea of who is 
going where. But it certainly suggests that the fractures 
within the opposition are not just about mainstream versus 
extremist groups.
    Ambassador Ford. Senator, you are absolutely right, there 
is more--there actually now are two al-Qaeda groups in Syria. 
There is Jabhat al-Nusra, which we have designed as a foreign 
terrorist organization affiliated to Al Qaeda in Iraq last 
year, 11 months ago. Now in the last I would say 7 months, the 
Islamic State for Iraq and the Levant has appeared as a 
separate entity, with more foreign fighters than Nusra Front 
has.
    Nusra seems to have more Syrians, but Nusra is connected to 

al-Qaeda and to al-Qaeda's leadership. But at the same time, 
there is this competing group, the Islamic State, with direct 
ties out of Iraq. They are fighting each other in some places 
in northern Syria and also in the northeastern city of Raqqah. 
In some places, just to make the battlefield even more 
complicated, there are tactical alliances between elements of 
the Free Syrian Army and the Nusra Front against the Islamic 
State.
    In some places, Senator, it becomes even more complicated 
because you have Kurdish militias fighting along with other 
Arab secular militias, and it becomes quite a hodge-podge.
    I would just point out one thing if I may, Senator. Just in 
the last month we have started to see some efforts by non-al-
Qaeda groups to begin to try to reunite, recentralize. I do not 
know where that is going to go exactly, but it was not there 2 
months ago. So I find it as a phenomenon interesting. In fact, 
in my next trip out to the region that is a question I will be 
looking at in some detail.
    Senator Murphy. There is the desire on behalf of a lot of 
people on this committee to have America weigh in with greater 
force to try to allow the nonextremist elements to essentially 
win the fight within the opposition. How does the fracturing of 
the extremist wing of the opposition either help or hinder our 
efforts or others' efforts to try to empower the FSA and others 
to win the battle within the opposition for who sits at the 
negotiating table ultimately?
    Ambassador Ford. In my last trip out to the region, 
Senator, I had a number of meetings with leaders of fighting 
groups in north and northwestern Syria, and I can tell you--
these were the real commanders. We met them in Turkey. They 
were happy to get tactical level help wherever they could get 
it, and they were very up front about that. So if they had a 
Nusra unit fighting down the street from where they were, but 
against the same enemy, they were happy to take that help.
    I have to tell you, we in the administration regard this 
with a bit of caution because we do not want people that we 
support to be in turn in bed with the Nusra Front. So this 
becomes really a challenge for us in terms of directing our 
assistance.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Let me thank this panel. I know several of us--Senator 
Coons, myself, I am sure others--Ambassador Ford, would like to 
engage you a little further in another setting, and Secretary 
Countryman. We are going to want to pursue some of those 
questions in a classified setting.
    With our thanks to all of you, let me call up Ambassador 
Hof and Mr. Gelb to our next panel. As we call them up, let me 
say that I want to apologize for my need to go to the Senate 
floor. I have a new colleague from New Jersey who is about to 
be swon in and I need to be there for that event. But I have 
read your testimony and I appreciate your insights, and I have 
several questions that I am going to submit for the record that 
I would love to--and maybe will call you if you will be so 
gracious as to give us some of your time to engage.
    I think Senator Corker has also.
    Senator Corker. Mr. Chairman, it is my understanding that 
what we may do, we have some outstanding witnesses, is to 
listen to their testimony and then adjourn the meeting and ask 
questions formally in writing, if that is--is that acceptable? 
OK.
    The Chairman. So with that, let me ask Senator Kaine, who 
has been gracious enough to preside during this period of time.
    Senator Kaine [presiding]. Well, thank you to panel two. It 
is a gift to us, and I am sorry that there is so much turmoil, 
but it is at least a positive to be swearing in a new Senator. 
That is a good thing. Sometimes the turmoil is not so positive, 
and that is why many members are going.
    But the written testimony that you have each submitted is 
superb, and so we do welcome Ambassador Hof, who is a senior 
fellow at the Rafiq Hariri Center for the Middle East at the 
Atlantic Council, and Leslie Gelb, who we know so well on this 
committee, the president emeritus and Board senior fellow at 
the Council on Foreign Relations.
    In that order, I would like you to begin with opening 
statements, and then we will see how we are in time when you 
finish those statements to determine whether we might ask 
questions before some of us need to go to the floor.
    Thank you.

STATEMENT OF HON. FREDERIC C. HOF, SENIOR FELLOW, RAFIK HARIRI 
  CENTER FOR THE MIDDLE EAST, ATLANTIC COUNCIL, WASHINGTON, DC

    Ambassador Hof. Very good. Senator Kaine, Ranking Member 
Corker, thank you so much for your invitation. I am delighted 
that you think I can contribute something to your deliberations 
on what is truly a problem from hell, this problem of Syria.
    You have my full statement, so I will compress things a bit 
in the interest of time. The first point I would like to make 
if I may is that the chemical weapons framework agreement 
recently arrived at and blessed by the United Nations Security 
Council is most definitely a good thing. We have news this 
morning that Syria has beaten the deadline for the destruction 
of its production facilities. Much work obviously lies ahead, 
but an Assad regime that is deprived of these materials is a 
good thing for 23 million Syrians and for the entire 
neighborhood.
    And yet, the problem of Syria at its root is not an arms 
control problem. Chemicals are the tip of a very deep and very 
deadly iceberg, one that will surely, if left unattended, kill 
all attempts to create a political path, a negotiated 
settlement to this problem.
    The iceberg itself is a deliberate, systematic policy and 
practice of the Assad regime to target civilians with 
artillery, rockets, aircraft, and missiles for murder, mayhem, 
terror, and flight.
    Consider the words of the independent international 
commission of inquiry reporting to the Human Rights Council 
right after the atrocities of August 21, and I quote. It is 
very brief: ``Government and pro-government forces have 
continued to conduct widespread attacks on the civilian 
population, committing murder, torture, rape, and enforced 
disappearance as crimes against humanity. They have laid siege 
to neighborhoods and subjected them to indiscriminate shelling. 
Government forces have committed gross violations of human 
rights and the war crimes of torture, hostage-taking, murder, 
execution without due process, rape, attacking protected 
objects, and pillage.''
    Now, this independent international commission did not give 
a free pass to jihadists supposedly opposing this regime in 
their own depradations. But the commission clearly, clearly 
identified this practice of systematically targeting 
residential neighborhoods as the thing that is driving this 
unspeakable humanitarian crisis that's not only victimizing 
Syria, but it's swamping the neighborhood, including some 
important American allies and friends.
    Now, I think the Obama administration understands that the 
chemical agreement itself, as good as it is, only seeks to saw 
off the tip, the visible part of this iceberg. This is why our 
Secretary of State is scrambling to try to put together a 
diplomatic process that moves Syria in the direction of 
political transition from this regime to something that is 
actually civilized.
    On its current course, as we heard from the first panel, 
Syria is indeed rapidly becoming the Somalia of the Levant. One 
set of terrorists, the Assad regime, is consolidating itself in 
western Syria. Other sets of terrorists, some affiliated with 
al-Qaeda, are implanting themselves in the east. The 
administration is trying to jump-start a diplomatic process 
that would preempt this worst of all worlds scenario.
    Yet the obstacles are very daunting. The entire purpose of 
a Geneva conference or, if it develops this way, a series of 
meetings would be to replace the Assad regime with a 
transitional governing body that would exercise full executive 
power in Syria for an agreed period of time. This body, as we 
heard this morning, would be created by negotiations by the 
regime and the opposition on the basis of mutual consent.
    This means that anyone participating in the exercise of 
full executive power would have to be accepted by both sides. 
The regime, however, has made it clear in public statements 
that the person, the position, the prerogatives of Bashar al-
Assad are not up for discussion at Geneva. The Syrian National 
Coalition, which would lead an opposition delegation, is 
undecided whether or not to attend.
    Mr. Chairman, in the interest of time let me just skip to 
my bottom line. I would conclude by pleading that we not avert 
our gaze from the humanitarian catastrophe that is unfolding 
before us, victimizing millions of Syrians and harming all of 
their neighbors. Mr. Assad seems to have concluded that he can 
do anything he likes provided he does it without chemicals. His 
principal external supporters, Russia and Iran, seem to be not 
at all disturbed by his military's concentration on civilian 
populations.
    If, as I regrettably suspect, political transition will not 
be on the table in any meaningful way any time soon, then our 
diplomatic effort, all of it, it seems to me has to focus on 
persuading Teheran and Moscow to get their client out of the 
business of war crimes and crimes against humanity. And if we 
want there to be a civilized alternative to this axis of 
codependency, the Assad regime and its jihadist enemies of 
choice, currently dividing Syria between them, then we will 
have to be more serious about overseeing the process of who 
gets what inside Syria from external sources in terms of arms 
and equipment.
    [The prepared statement of Ambassador Hof follows:]

            Prepared Statement of Ambassador Frederic C. Hof

    Chairman Menendez, Ranking Member Corker, members of the committee, 
I am deeply honored by your invitation to testify today on the 
situation in Syria. It is a situation for which the word ``appalling'' 
barely suffices. The crisis in Syria has, for more than 30 months, been 
destroying a country of 23 million people. It has been destabilizing a 
neighborhood containing important allies and friends of the United 
States. It has been raising questions about the ability of the postwar 
international system to halt or at least mitigate politically inspired 
mass murder. As Americans we have a special interest in how the United 
States responds to an example of what Ambassador Samantha Power 
characterized as ``a problem from hell'' in her Pulitzer Prize winning 
work.
    What I would like to emphasize at the outset, Mr. Chairman, is the 
humanitarian catastrophe that has resulted from the March 2011 decision 
of the Assad regime to choose lethal force as its response to peaceful 
protest. Government witnesses will provide you the latest numbers of 
deaths, refugees, internally displaced, and Syrians requiring 
nutritional, shelter, and health assistance. This grotesque situation 
will only worsen with the onset of winter. Members of this committee 
who have visited refugee camps have seen the despair of adults and the 
terror imprinted in the minds and on the bodies of children. The 
Independent International Commission of Inquiry on Syria, reporting to 
the United Nations Human Rights Council, has identified the Assad 
regime's practice of indiscriminate artillery shelling and aerial 
bombardment of civilian residential areas as by far the predominant 
cause of this catastrophe. It is, as the Commission has indicated, a 
program that features war crimes and crimes against humanity. Bringing 
this loathsome practice to an end and focusing on civilian protection 
in Syria should be our top diplomatic priority. Twenty-three million 
Syrians and all of their neighbors will thank us if we succeed.
    We are, Mr. Chairman, at a diplomatic turning point in this crisis. 
There is no need for me to recite the chain of events that began on 
August 21, 2013, when the Assad regime employed sarin gas to kill over 
1,400 Syrian citizens, including many children. Suffice it to say that 
the chemical weapons framework agreement reached by the United States 
and Russia, endorsed by the United Nations Security Council, and now 
being implemented by United Nations inspectors, is a good thing; good, 
but far from sufficient.
    Taking from the hands of Bashar al-Assad and his criminal 
associates their toxic tools of trade will be a gift of great value to 
Syrians and all of their neighbors. Yet the mass murder continues, even 
as we speak, albeit without chemical munitions. We have addressed the 
tip of a deadly iceberg. It is the iceberg itself--a regime policy of 
mass terror--that threatens to sink all attempts to arrest and reverse 
Syria's slide into Somalia-like failed statehood. What is needed is a 
bridge from the chemical agreement to something that can address the 
Syrian crisis directly.
    Syria is not, after all, an arms control problem. It is, quite 
literally, a threat to regional and international peace. As matters now 
stand an informal partition is taking hold, with the Assad regime 
consolidating its grip on the western part of the country adjoining 
Lebanon and the Mediterranean Sea. Kurds are trying to defend 
themselves in the northeast, and much of eastern Syria is dissolving 
into chaos, with al-Qaeda affiliates and other jihadists seeking to 
impose their ideas of governance on unwilling populations. This axis of 
codependency--the Assad regime and its jihadist enemies of choice--has 
been lavished with arms and money. Syrian nationalists trying to stand 
up to both sets of terrorists have not. Left on its present course a 
dying Syria with a dead economy will be hemorrhaging refugees and 
exporting terrorism for many years to come.
    Since May of this year the Obama administration has sought to 
resurrect a political transition formula for Syria agreed to by the 
Permanent Five members of the United Nations Security Council and 
others in June 2012, under the chairmanship of Kofi Annan. The Final 
Communique of the Action Group on Syria called for negotiations between 
the Syrian Government and its opponents; negotiations that would 
produce, on the basis of mutual consent, a transitional governing body 
to exercise full executive power in Syria for an agreed period of time 
in accordance with human rights standards. The objective of this 
transitional governing body would be to set the stage for what two 
United Nations Security Council resolutions called ``a democratic and 
pluralist'' political system for Syria.
    The formula for political transition arrived at in Geneva did not 
mention the name ``Assad.'' It did not mandate, as a precondition, the 
resignation of the Syrian President or his departure from the country. 
Yet the mutual consent and full executive power clauses of the 
agreement made it clear that an ongoing role in Syria's governance for 
the current President and his circle of enablers would be possible only 
if the opposition agreed to it. Furthermore, the transitional governing 
body eventually established would wield full executive power, 
displacing those elements of the regime and its subservient government 
not preserved via mutual consent.
    The challenge faced by Secretary of State Kerry as he tries to 
resurrect the Geneva formula for near-term political transition in 
Syria is multifaceted, daunting, and perhaps a mission impossible.
    First, the Assad regime has made it clear that it has no intention 
to cooperate in its own transition. Indeed, early in his service as 
Secretary of State, Mr. Kerry identified this as a key problem, noting 
that steps would have to be taken to change Bashar al-Assad's 
calculation with respect to the desirability of a negotiated political 
transition from violent clan rule to something civilized. If Assad's 
calculation has changed at all over the past few months it has moved in 
the wrong direction. He has been confident of Iranian and Russia 
assistance and he now regards himself as an essential party to a long-
term contract having to do with the disposal of chemical weapons. His 
Foreign Minister has made it clear that the person, power, and 
prerogatives of Bashar al-Assad will not be up for discussion in a 
``Geneva 2'' conference.
    Second, Iran and Russia support the Assad regime in its rejection 
of the Geneva political transition formula. Iran needs the Assad regime 
for two things: Syria's logistical and political support of Lebanon's 
Hezbollah, whose missiles and rockets are regarded by Tehran as its 
first line of defense against Israel; and the willingness of Bashar al-
Assad to facilitate Iran's political penetration of the Arab world. 
Tehran fully understands that neither a transitional governing body nor 
a freely elected Syrian Government would sustain these policies. It is, 
therefore, ``all in'' for the preservation of Mr. Assad. Russia, 
meanwhile, has taken the position that the Geneva formula simply does 
not apply to the Syrian President. Instead Geneva, according to Moscow, 
should produce a national unity government--a Prime Minister and 
Council of Ministers--to replace the current lineup, leaving Mr. Assad 
in place at least until the elections scheduled for May 2014. Clearly 
Moscow wants Assad to stay in power. This is why it moved with alacrity 
on the chemical weapons front. It realized that the regime's use of 
toxins was the only thing tempting the President of the United States 
to bring military force to bear against Russia's sole remaining Arab 
World partner.
    Third, the Syrian opposition--fragmented, fearful, and 
dysfunctional--is disoriented by the prospect of engaging the regime in 
Geneva and undecided about whether or not to do so. The term 
``opposition'' itself is not terribly illuminating. Clearly al-Qaeda 
and other jihadist elements in Syria are not interested in seeing the 
Assad regime replaced at Geneva by a body representing nonsectarianism, 
reconstruction, reform, and reconciliation. They need the Assad regime 
as a foil just as surely as the Assad regime needs them. For the 
purpose of the discussion today I will be referring mainly to the 
Syrian National Coalition when I speak of the opposition, even though 
this reference itself is inadequate, as there is no single organization 
that can claim to represent all or even most of the millions of Syrians 
opposing the Assad regime.
    Nevertheless, in December 2012 the United States and other national 
members in the Friends of the Syrian People Group recognized the Syrian 
National Coalition as the legitimate representative of the Syrian 
people. The logical next step would have been for the United States and 
others to have helped prepare the Coalition to establish an alternate 
government on liberated Syrian territory: one that we, as part of a 
broad coalition, would have recognized diplomatically, supported 
economically, and helped to defend. That never happened.
    Instead the United States and the United Nations continue to 
recognize the Assad-led government, a situation that has had enormously 
bad humanitarian consequences for the people of Syria. And without an 
alternate government providing services and reflecting the values of 
nonsectarianism and citizenship, many Syrians who still stick with 
``the devil they know'' have been denied an alternative they can see 
and evaluate. The recognition accorded last December seems now to be 
meaningless.
    The result is that the Syrian National Coalition remains, in its 
essence, an exile organization. It has sought to create an interim 
government deployable to Syria, but the United States has made it clear 
it will not recognize it. Some 13 jihadist organizations in Syria have 
announced their nonrecognition of the Coalition itself. Is it any 
wonder that the Coalition hesitates to grasp the presumed opportunity 
being offered by Geneva? Is it any wonder that Secretary Kerry and his 
colleagues in the London 11 core group of the Friends of the Syrian 
People find it hard to secure the trust of the Coalition?
    Consider for a moment what this Coalition--an organization not 
quite sure of its popularity and legitimacy anywhere in Syria and 
acutely aware of the failure of the West to support nationalist 
resistance forces affiliated with it--is being asked to do. It is being 
invited to attend a Geneva conference while its putative constituents 
are being pounded night and day by Assad's artillery and air force. It 
is being offered the opportunity to listen to a mocking sermon 
delivered by Assad's chief of delegation about the inviolability of 
Bashar al-Assad's status. What exactly would this troubled Coalition 
get for attending such a meeting? What it fears getting is its 
political coup de grace. On top of this Russia and the regime are 
seeking to pack the opposition's Geneva delegation with house-broken, 
regime-recognized ``opposition'' figures.
    Secretary Kerry and his London 11 colleagues have tried to reassure 
the Syrian National Coalition, in an effort to secure its attendance at 
Geneva. They have said, in a communique issued on October 22, that the 
opposition delegation would have the Coalition in the lead and as its 
``heart''; that assistance to the mainstream opposition and its 
military forces would be stepped up; that the purpose of Geneva is 
political transition, and that the formula agreed to in June 2012 all 
but rules out continuation of the Assad regime; and that the regime and 
the opposition alike should publicly affirm their commitment to 
complete political transition. This wording implies that a ``Geneva 2'' 
conference may not take place absent the requisite commitments.
    The Syrian National Coalition will soon decide whether or not to 
attend Geneva in light of these reassurances. On balance I believe it 
should. Yet one thing is certain: the Coalition does not trust the 
United States. Pledges of increased assistance have been made and heard 
before. Questions about the actual desire of the United States to see 
Assad step aside have been raised. Obviously the Assad regime and its 
Russian and Iranian supporters want Geneva to be the death knell for 
what is left of the mainstream, nonsectarian opposition. The threat 
posed to the Syrian opposition is real. And yet it must take into 
account the possibility that Washington and Moscow may prevail upon 
Special Representative Lakhdar Brahimi to convene the meeting, and it 
should measure the consequences for the Syrian opposition of not 
showing up.
    If it appears that Geneva 2 is going to take place, the Syrian 
National Coalition should take advantage of the forum to showcase some 
real leadership. It should come armed with a list of names to present 
to Special Representative Brahimi representing its idea of the 
composition of a transitional governing body. It should make that list 
public. The names should reflect excellence, experience, integrity, and 
patriotism: a nonsectarian all-star team that might well include 
members of previous and even the current Syrian Government, provided 
they are people who have tried to render honest service in spite of the 
regime. By taking this step a long-awaited alternative to the Assad 
regime would, at last, come into focus for 23 million Syrians.
    The Syrian National Coalition has its work cut out for it if it is 
to attend a Geneva conference in late November. It will have to appoint 
and empower a small, cohesive team to make key decisions quickly to 
avoid crippling, endless debates. It will have to reach deep inside 
Syria to include in its delegation men and women who have borne the 
brunt of hardship and sacrifice from the beginning. Indeed, it should 
make a special effort to insure that Syrian women and young people play 
leading roles. Woman have suffered and struggled more than anyone. 
Geneva 2, if it happens, should be used as an opportunity by the Syrian 
National Coalition to earn the legitimacy it was symbolically granted 
by the Friends of the Syrian People.
    Syria on its present course is becoming the worst of all 
conceivable scenarios: a failed state divided between international 
terrorists; a carcass being devoured by violent criminals. People of 
decency maintain there is no military solution to Syria's travails, and 
act accordingly in their devotion to nonviolent diplomacy and dialogue. 
People of a different sort--starting with the regime itself--see things 
differently: they are unashamed about seeking a military victory. The 
latter have a significant advantage over the former: they act on the 
ground to terrorize and kill and they perceive no credible military 
threat to anything they do, provided they do it without chemicals.
    This is why the London 11 communique implies that Geneva 2 should 
not happen absent meaningful commitments to Geneva's mission: real 
political transition. Yet even with such commitments a transitional 
governing body would not likely be created in a single session, even 
one that lasts beyond a few days.
    Our diplomatic effort, therefore, should focus on the real 
challenge: ending or significantly mitigating the humanitarian 
nightmare engulfing Syria and all of its neighbors. This means leaning 
hard on Russia and Iran to get their Syrian partner to stop the 
slaughter of innocents. The shelling and bombing of population centers 
simply must stop. For a few days in August of this year it appeared 
that the United States might stop it: that we might neutralize the 
tools of terror that rain down ordnance--some of it chemical, but 
nearly all of it conventional--on unarmed civilians who are targeted 
simply because they do not live under regime occupation. Kofi Annan 
recognized by late 2011 that there could be no progress toward a 
political settlement unless de-escalatory steps initiated by the regime 
were taken: hence his six-point plan. The recent communique of the 
London 11 recited elements of that plan as listed in the June 2012 
Geneva Final Communique. How can a peace conference produce anything 
useful in terms of political transition when vulnerable civilian 
populations are being set upon by packs of wolves? With the prospects 
for transition so low, the United States should pivot diplomatically in 
the near-term to protection of Syrian civilians as its number one 
priority. The objective of ending the Assad regime's artillery, air, 
missile, and rocket attacks on residential areas should be our top 
near-term priority whether Geneva 2 takes place or not.
    While pressing Moscow and Tehran to put a leash on their client, 
the United States and its allies simply must get serious about 
arresting and reversing the marginalization of armed Syrian 
nationalists willing to follow the lead of the Coalition-affiliated 
Supreme Military Council. These elements need the means to defend their 
people against regime attacks--supplemented by Lebanese and Iraqi 
militiamen organized by Iran--and stand up to jihadists working with 
the Assad regime to divide Syria.
    There are those who argue it is too late to make Syrian nationalist 
military leaders the magnets for patriotic Syrians willing to resist 
the regime and al-Qaeda; that the United States long ago missed this 
opportunity. Whether or not it is really too late cannot be known 
without trying. The last thing we need is an unintended consequence of 
inaction; a prophecy of impotence that becomes self-fulfilling.
    People of good will can and do disagree on matters of objectives, 
strategy, and tactics in Syria. What should be beyond dispute, however, 
is a key finding of the Independent International Commission of 
Inquiry: ``Government and pro-government forces have continued to 
conduct widespread attacks on the civilian population, committing 
murder, torture, rape and enforced disappearance as crimes against 
humanity. They have laid siege to neighborhoods and subjected them to 
indiscriminate shelling. Government forces have committed gross 
violations of human rights and the war crimes of torture, hostage-
taking, murder, execution without due process, rape, attacking 
protected objects and pillage.'' Without overlooking or excusing the 
depredations of jihadist elements, the Commission spelled out a 
powerful indictment of the Assad regime. Unless we can succeed in 
obliging this regime to abandon its crime spree against vulnerable 
populations, the prospects for a negotiated political settlement, 
whether at Geneva or any other place, is nil.

    Senator Kaine. Thank you, Ambassador Hof.
    Mr. Gelb.

  STATEMENT OF LESLIE H. GELB, PH.D., PRESIDENT EMERITUS AND 
BOARD SENIOR FELLOW, COUNCIL ON FOREIGN RELATIONS, WASHINGTON, 
                               DC

    Dr. Gelb. Ranking Chair, Ranking Member, members of the 
committee, I will do my best to be brief.
    The start of any effort to make sense out of what we are 
doing in Syria is to have a serious Mideast strategy. We do not 
have it. Just talk to the leaders of the nations in the area 
and you will see that they are confused and dismayed, and their 
willingness to help us on Syria, to follow our lead on Syria, 
will depend in good part about our getting our act together in 
terms of dealing with Iran, Iraq, Arab-Israeli negotiations. 
These things all fit together in the real world.
    As far as Syria itself is concerned, we do have no 
strategy. I think all of you touched on that point very well. 
We started out wanting to get rid of Assad. We did not take any 
efforts, either militarily or diplomatically, that could get 
rid of him. We drew redlines and then did not do anything about 
them, walked away from them.
    And now we are in a position where it seems we are just 
going to let this war drag on, with terrible consequences that 
Fred Hof describes and you know full well the horrors of it.
    What I would like to do is to get you to think about 
another possibility, one that I think could hold some promise 
in some shape or form. That is this. I do not think that we can 
supply enough arms to the good rebels--the Sunni moderate 
rebels, the secular rebels--for them to prevail. And even if we 
added to that some kind of American bombing presence, which our 
military does not want and which would be very costly indeed, 
and we do not know how effective it would be, even then I do 
not think there would be a military solution.
    The Russians, the Iranians, and others would support the 
Assad regime all the more, and we would have a stalemate at a 
more horrific level for the people of the region.
    So what I would do is this. I would focus on two things: 
one, what is the real threat to the United States interests? 
Focus hard and relentlessly on that issue. The answer is the 
jihadis, Nusra, 
al-Qaeda, and the Islamists who are threatening to take over 
that state or good chunks of it. They are the real enemy to us, 
to the Russians, who fear these Sunni Nusra, al-Qaeda radicals 
also, to the Iranians who fear them, to the Iraqi regime, to 
the Alawites who have run Syria, and to the Sunnis seeking to 
overthrow them. They all understand that the worst thing that 
could happen to all of them would be a takeover by the Islamist 
extremists.
    That provides a basis over time for us to cajole, push, 
both the Alawite regime and our Sunni moderate friends into 
some sort of operating alliance or cooperation against the 
jihadis. I think there is a real basis for it.
    Now, there would have to be political understandings as 
well, and I agree with all of you who feel that in the end 
Assad must go. It is very important. But the Alawites have to 
be protected, and you are not going to get the cooperation from 
Iran or from Russia, from any of these other countries, unless 
you do protect those Alawites.
    So focusing on the real threat allows us to focus our 
military aid and our diplomacy. If we do not try to do 
something like that, I think the only result is what we are 
seeing--more fighting, more killing, more horrific suffering 
for the Syrian people and their neighbors.
    Thank you.
    [The prepared statement of Dr. Gelb follows:]

                Prepared Statement of Dr. Leslie H. Gelb

    It is always an honor to appear before this committee. Yours is the 
most important forum for public discussion of U.S. foreign policy. And 
no policy can be sustained and prove effective without a full and 
serious public airing. It was my treat to work for Senator Jacob Javits 
in the 1960s when he joined this committee.
    Please forgive that I offer this paper in the form of an outline. I 
just learned I would testify this past weekend. And besides, I presume 
to think that an outline actually might be easier than an inevitably 
wordy paper for public servants dodging daily tidal waves.
    I have spent more than 50 years in the foreign policy world--as a 
Senate staffer, the Director of Policy Planning in the Pentagon, an 
Assistant Secretary of State for Politico-Military Affairs, a senior 
fellow in various think tanks, a correspondent, editor, and columnist 
for The New York Times, and as the President of the Council on Foreign 
Relations. I have made my full share of mistakes in practice and in 
print. In most cases, the failures were caused by lack of true 
knowledge of the countries concerned. Far too often in foreign 
policymaking, nations in question are viewed by policymakers here in 
Washington as squares on a chess board and not living places with 
cultures and histories and mysterious decisionmaking systems. We often 
don't know who and what we're dealing with. We learn about our 
ignorance at the expense of the American people.
    Yet another major reason for policy failure is a lack of a 
coherent, plausible, and workable strategy; i.e., one that honestly 
examines what we know and don't know about the situation and parties, 
one that honestly and hard-headedly appraises U.S. interests and the 
power that our Nation can actually apply and where, and finally one 
that establishes achievable objectives, not goals that result from 
ideology and politics.
    Pardon the long windup, but in policymaking, the windup is almost 
as important as the pitch.

I. We need an overall Mideast strategy, not just a Syria policy.

    Mideast leaders, without exception, say they don't know what the 
U.S. strategy is toward their country and toward the region. They say 
it's vague and ever-changing. It's not nearly enough for the U.S. to 
simply say we want to try negotiations on nuclear capability with Iran, 
press ahead on Palestinian-Israeli peace talks, and mitigate the 
suffering in Syria. It's totally confusing to start saying that the 
centerpiece of U.S. policy is to promote democracy and then simply say 
that it is beyond us. Mideast leaders don't understand how the U.S. can 
cozy up to the Muslim Brotherhood in Egypt and then deny succor to the 
true Egyptian civilian democrats installed by the military. Our best 
Mideast friends can't figure out why we have reduced democracy 
promotion to the holding of elections, when it's quite clear that in 
countries long dominated by dictators, only the well-organized radicals 
are best organized to win elections.
    If we want true help in Syria--and we need it--we'll need better 
policies toward Syria's neighbors first. Others will help us in Syria 
to the degree that what we are proposing to do there makes sense. They 
will also care about our policies directly toward them.

II. The starting place for making Syria policy is asking ourselves: 
``who is the biggest threat to U.S. interests there?''

    The Obama administration started out with the position that 
President Assad was the most serious threat to us, and that he and his 
regime had to go. As nasty a dictator as Assad is--and he's plenty 
nasty--he isn't the biggest threat to the United States. He's a threat 
to anyone who opposes him from within. But his external policies, like 
those of his father, are ones that his neighbors, including Israel, 
lived with without great difficulty--with the exception of Assad's 
efforts to go nuclear in some fashion.
    The biggest threat to U.S. interests comes clearly from the Muslim 
extremists--al-Nusra Front, al-Qaeda, and other related groups. They 
represent clear and present dangers to Turkey, Jordan, Israel, Lebanon, 
and others. Just ask them. With a safe base in Syria, they would 
promote terrorism against their neighbors. And they would foster 
religious extremist rule in every one of those countries, and of 
course, in Syria itself. If you think Assad has enslaved his people, 
these terrorists and extremists would enslave all, particularly women. 
And they would make life intolerable for Christians, Shiites, Alawites, 
and anyone who doesn't believe exactly what they believe.

III. So, how do we build a U.S. strategy against this Muslim extremist 
threat? The answer is to get all parties to focus on this common 
interest against the extremists.

    The extremists are a formidable fighting force. Fanatics, 
especially well-heeled ones, usually are. They've been quite successful 
in gaining and holding territory--and imposing Shariah law.
    Assad's Alawites know that the Sunni jihadists, if they come to 
power, would kill them. They would be killed because they have ruled 
over Syrian Sunnis and simply because they are viewed as hated Shiites. 
And the Sunni rebels, the moderates that the U.S. favors, fear them 
most as well. The moderates know well that once in power, the 
extremists would treat moderate and secular Sunnis the same as the 
enemy Shiites.
    This profound fear of al-Nusra Front, al-Qaeda crazies is the 
potential common bond between the Alawites and the moderate Sunni 
rebels. Of course, they don't like each other, but they hate the 
radicals more.

IV. The U.S., then, has to use its policies, arms, and aid to forge 
this alliance between Alawites and moderate Sunni rebels. Both would 
focus on fighting the jihadis, not each other. And in that context, the 
U.S. and its allies would provide and expedite the necessary weapons 
and money to the moderate rebels.

    There would be a kind of temporary truce between the Alawites and 
the moderate rebels as they tried to weaken and destroy their shared 
threat. As part of this truce, the U.S. and Russia would seek agreement 
from Assad to step down in the context of Geneva negotiations and after 
the subduing of the jihadis.
    Then, an interim government of Alawites and moderate rebels would 
focus on the rapid development of democratic institutions--laws, 
courts, civil society, free press, and the like. Meantime, they would 
share power and, if done peaceably, would receive outside aid. After 
several years, elections would be held on the understanding that the 
resulting government would promote power-sharing based on a federal 
system. Each group, as a practical matter, would prevail in its ``own'' 
part of the country, and oil and gas revenues would be shared, etc.

V. The execution would not be as easy as portrayed above. But the 
principles above--the strategy--could serve as practical guidelines. 
It's virtually impossible to visualize any other reasonable end to this 
bloodshed or any other way to moderate the potential threats of Muslim 
extremism to our friends and allies in the region.

    Senator Kaine. Thank you, Mr. Gelb.
    Let me check with the staff. The vote, I was just going to 
say, is starting right now. It will likely be a 15-minute vote. 
Let me just--I want to ask--we will ask a couple of questions 
and then some of us will depart, and we will leave the record 
open for questions by committee members until 5 o'clock 
tomorrow for these valuable witnesses.
    The statement that Ambassador Ford made earlier was that at 
the current time neither side has the ability to deliver a 
knockout punch against the other. Is that an opinion that--I 
would like each of your opinions about that statement.
    Ambassador Hof. Senator, I think Ambassador Ford was 
exactly correct. At this point, at this point you do not even 
have a civil war in the sense of much going on in terms of 
units firing and maneuvering. This so-called civil war looks 
nothing like, pardon the expression, Grant marching on 
Richmond, Senator.
    Senator Kaine. A little sensitive where I come from. 
[Laughter.]
    Ambassador Hof. What we are really seeing, the primary 
aspect of the so-called combat is regime standoff weaponry--
artillery, aircraft, rockets, missiles--pounding residential 
areas that it either cannot take through ground forces or has 
chosen not to take. So you really do not have much in the way 
of a fluid situation between units at this point.
    Senator Kaine. If the chemical weapons were in existence 
and could be used, that would be a knockout punch. So at least 
the removal of the chemical weapons from the equation took a 
knockout punch away for the Assad regime, correct?
    Ambassador Hof. I think, Senator, that the chemicals were 
an important subset of the terror aspect here. I think we have 
to keep in mind that chemical weapons, as loathsome as they 
are, accounted in the end for a tiny, tiny, tiny fraction of 
the deaths and injuries.
    Senator Kaine. Mr. Gelb, the idea you put on the table 
about an organizing principle in Syria is intriguing. What 
would that idea--extend that idea to how we should be 
positioning, if that was our goal, how should we be positioning 
our efforts with respect to the restart of Syria's Geneva 
discussions?
    Dr. Gelb. I do not think there is going to be a serious 
restart of the Geneva negotiations.
    Senator Kaine. So you really assume that this is a strategy 
that assumes that the Geneva discussions at best will be 
superficial and kind of window dressing, but not substantive?
    Dr. Gelb. I do. I think you have got to begin to portray, 
for both the Sunni moderates we want to support and for the 
Alawites who we cannot allow to be killed--they would be 
slaughtered, too-- 
a kind of solution for them, which I think ought to take place 
along power-sharing lines, a federal system.
    Then-Senator Joe Biden and I, some of you will remember, 
proposed a federal system for Iraq as the only way to prevent 
eventual slaughter there. You have to let each of these 
communities basically run their own affairs within a united 
state. We solved our own problem with just such a federal 
solution. I think we have to put that forward to them, to 
explain that that is the only way for them to escape the 
continuing stalemate and the continuing horror of the war.
    Senator Kaine. Let me see if Senator Markey has questions?
    Senator Markey. If I may, thank you, Mr. Chairman.
    If you could expand a little bit more on Iran and Russia 
and what you would propose that we do in order to extract the 
kind of actions that you believe are necessary for us to bring 
Assad to the table?
    Dr. Gelb. Good to see you, Senator Markey.
    Senator Markey. Good to see you, sir.
    Dr. Gelb. I have talked to the Russians and the Iranians 
about this, and I think they are quite sympathetic to the idea. 
They have not agreed to it by any means, but it suits their 
interests, because they want to do something in the end that 
protects their allies, the Alawites, and they are not foolish. 
They see down the line that Assad is not going to be able to 
stay in power and that regime is not going to stay in power, 
but they want enough protection for them, and that this 
presents somewhat of an answer for them.
    So I think we need to have this overall strategy and go and 
talk to them with that strategy in mind. You cannot just say: 
Hey, let us have a Geneva conference. It will not work.
    Senator Markey. Let me just, if I may, because 
administration officials did not want to specifically call out 
Saudi Arabia or other nations, we will just call them Gulf 
States. But do either of you feel comfortable in talking about 
those individual states by name in terms of what we should be 
asking from them in terms of reducing the amount of support 
which is going in to the more radical groups that are inside?
    Dr. Gelb. Absolutely.
    Senator Markey. Could you name the countries and what it is 
you think our policy should be?
    Dr. Gelb. Yes. The countries are Saudi Arabia and Qatar 
mainly, although it comes in from some other places as well. 
But those are countries who look to us for general protection 
in the region. And I am not aware that we have really leaned on 
them about some of this aid to the jihadis, and we should.
    Senator Markey. Mr. Ambassador.
    Ambassador Hof. Senator, I think it is critically 
important, and I recognize the operational difficulties of 
this. This is not a silver bullet, it is not a panacea. It 
would be very, very hard to do. But I think the United States 
has to insert itself as the overall supervisor of who gets what 
in terms of external military assistance going in to opposition 
groups in Syria.
    In order for us to do that effectively, my sense is--and I 
realize there are reservations about this--we have to have some 
skin in the game. I know that there are departments and 
agencies of the United States Government that have spent a lot 
of time identifying elements inside Syria we want to support. I 
believe that we have from the Saudis and Qataris and others 
agreement in principle that the Supreme Military Council should 
be the conduit.
    The problem is we need to be out there in charge of what is 
happening, just to make sure.
    Senator Markey. Can we be in charge if we are not providing 
an additional massive increase in lethal weaponry?
    Ambassador Hof. I do not think we can, Senator. I think 
this needs to be a Department of Defense activity. I think we 
need to scale this up and get serious.
    Senator Markey. If I may, Mr. Chairman, if I can just take 
it a step further.
    Senator Kaine. And Senator, if I could make this the last 
question. I do not want you to mess up your 30-plus year-
perfect voting record as a Member of Congress.
    Senator Markey. I cast the 11th largest number of votes out 
of 10,850 Members of the House since 1789 and so far I am 
perfect in the Senate. I was not in the House.
    If we did dramatically increase our military, what would 
the response be from the Saudis, from the Iranians, from the 
Russians, from Qatar and others? Why does that give us a 
leadership role with them? Why does it not just lead to an 
escalation rather than a reconciliation?
    Ambassador Hof. I think the practical problem we face right 
now, Senator, is that people who are Syrian nationalists, 
people who are dedicated to the idea of a nonsectarian 
government of citizenship in the future, are the ones finding 
themselves squeezed out of the picture as private money from 
the gulf plus what Ambassador Ford described as activities 
inside Syria are funding 
al-Qaeda-related groups and other jihadists. They are flush 
with money. They are flush with weapons. The regime, on the 
other side, is being supplied lavishly by both Russia and Iran. 
It is the people in the middle, the people who actually stand 
for the kinds of principles that I think everybody in this room 
would be comfortable with, who are not getting what they need.
    Senator Markey. Thank you.
    Dr. Gelb. Mr. Chairman, could I just have a minute.
    Senator Kaine. Mr. Gelb, I am going to let you have the 
final word and then we will adjourn, please.
    Dr. Gelb. It will just take a minute. I disagree with my 
friend Fred Hof on this. I do not think the answer is to put a 
lot more arms in there, although we should be putting some more 
arms in there. I think the way we can lead, take care of our 
interests, is to have a strategy that makes sense to the 
countries in the area, so that they will go along with it.
    They are not going to go along simply because we are 
providing more arms. It will not work.
    Senator Kaine. Thank you both. The record will stay open 
for additional questions for these witnesses or the first panel 
until 5 o'clock tomorrow. We appreciate your testimony and 
thank you for your patience today.
    [Whereupon, at 12:17 p.m., the hearing was adjourned.]

              Additional Material Submitted for the Record


Responses of Assistant Secretaries Robert Ford and Thomas Countryman to 
               Questions Submitted by Senator Jeff Flake

    Question. Throughout the Syrian civil war, the Obama administration 
has supported a negotiated political settlement to the conflict but has 
maintained that Bashar Assad must go. However, some experts have 
suggested that the framework now in place to eliminate chemical weapons 
in Syria has, in effect, created a U.S. interest to keep Assad in 
power. Assad himself seems to be emboldened by recent events, having 
said in a recent press interview, ``I don't see any reason why I 
shouldn't run in the next election.''

  <diamond> What is the administration's position on Assad remaining in 
        power? If Assad were no longer in power, what would happen to 
        the framework currently in place to eliminate Syria's chemical 
        weapons program?

    Answer. The administration supports a transitional governing body 
in which Assad and his close associates have no involvement. With 
regard to the elimination of chemical weapons in Syria, the United 
States will hold the Syrian Government, whether it is the Assad regime 
or a successor government, accountable for Syria's obligations under 
the Chemical Weapons Convention and U.N. Security Council Resolution 
2118.

    Question. The opposition in Syria remains adamant that Assad not be 
a part of any future government in Syria and has made that a sticking 
point in their negotiations. How has the framework to disarm Syria 
affected the peace process?

    Answer. The international community is working to bring the 
opposition and the Assad regime to the negotiating table to develop a 
sustainable solution for peace in Syria. The Geneva Framework for the 
Elimination of Syrian Chemical Weapons shows that the Russians are 
willing to pressure the Assad regime and that this pressure can help 
shape their behavior. We believe the regime used CW in part to 
compensate for a shortage of trusted, battle-capable regime troops. The 
international effort to eliminate Syria's CW will have a military 
impact, and we hope that this will provide a foundation for the wider 
political negotiations at a Geneva II conference.

    Question. Recently, the Deputy Prime Minister of Syria--who is not 
a member of the Baath Party and has been described by the Wall Street 
Journal as having ``joined the government . . . as [a] representative 
of the so-called internal peaceful opposition as a way for Mr. Assad to 
show his readiness for some reforms to help end the country's war,''--
was fired by Assad while Assad was in Russia. He was apparently fired 
because he met with you in Geneva to discuss peace negotiations.

  <diamond> In your view, why was Mr. Jamil dismissed? Do you view Mr. 
        Jamil's dismissal as a sign from Assad that he is not sincere 
        about future peace negotiations?

    Answer. We cannot speculate on the inner workings or sincerity of 
the Assad regime. The United States is committed to ensuring that the 
opposition accepts the Geneva Communique. The Russians have indicated 
that the regime is still open to negotiations and we expect that they 
will make clear that the purpose of these negotiations is to implement 
the Geneva Communique.

    Question. The administration's policy toward the Syrian civil war 
has gone from taking a hands-off approach and supporting a political 
settlement, while arming some of the rebel factions, to unenforced 
redlines on the use of chemical weapons, to requesting authorization of 
the use of military force to degrade and deter Assad's chemical weapons 
capability, and now to supporting the elimination of Syria's chemical 
weapons program.

  <diamond> Ambassador Ford, can you please describe to me what the 
        ultimate goals are for Syria and how the administration plans 
        to achieve them?

    Answer. We do not believe there is a military solution to the 
crisis in Syria and therefore support a genuine political settlement 
that can bring an end to the bloodshed, preserve state institutions, 
and prevent the conflict from spilling into neighboring countries. 
Negotiations are the only means to reach such a settlement; they should 
not be open-ended and must result in implementation of the Geneva 
Communique principle of a transnational governing body that holds full 
executive authority.

    Question. According to CRS, the United States has provided ``$6 
million in financial and in-kind assistance to the OPCW and United 
Nations'' for Syrian disarmament.

  <diamond> How much will disarmament cost before the task is 
        completed, and how much of that cost will be borne by the 
        United States? Have any funds designated as ``Overseas 
        Contingency Operations'' funds been used to achieve this goal, 
        and will any such funds be used in the future?

    Answer. The approximately $6 million in financial and in-kind 
assistance the United States has provided to the OPCW and United 
Nations was drawn from the Department of State's Nonproliferation and 
Disarmament Fund.
    Specific plans for elimination of Syria's remaining chemical 
weapons program are being developed by the U.N.-OPCW Joint Mission, and 
it is premature to discuss specific destruction details or costs until 
a destruction plan has been finalized, which we expect to occur in mid-
November.

                                  <all>

</pre></body></html>
